<html>
<title> - BUILDING A MORE DYNAMIC ECONOMY: THE BENEFITS OF IMMIGRATION</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                    BUILDING A MORE DYNAMIC ECONOMY:
                      THE BENEFITS OF IMMIGRATION

=======================================================================

                                HEARING

                               BEFORE THE

                        COMMITTEE ON THE BUDGET
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

            HEARING HELD IN WASHINGTON, D.C., JUNE 26, 2019

                               __________

                           Serial No. 116-12

                               __________

           Printed for the use of the Committee on the Budget

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                       Available on the Internet:
                            www.govinfo.gov
                            
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
37-723                       WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------                            
                            
                            
                            
                        COMMITTEE ON THE BUDGET

                  JOHN A. YARMUTH, Kentucky, Chairman
SETH MOULTON, Massachusetts,         STEVE WOMACK, Arkansas,
  Vice Chairman                        Ranking Member
HAKEEM S. JEFFRIES, New York         ROB WOODALL, Georgia
BRIAN HIGGINS, New York              BILL JOHNSON, Ohio,
BRENDAN F. BOYLE, Pennsylvania         Vice Ranking Member
RO KHANNA, California                JASON SMITH, Missouri
ROSA L. DELAURO, Connecticut         BILL FLORES, Texas
LLOYD DOGGETT, Texas                 GEORGE HOLDING, North Carolina
DAVID E. PRICE, North Carolina       CHRIS STEWART, Utah
JANICE D. SCHAKOWSKY, Illinois       RALPH NORMAN, South Carolina
DANIEL T. KILDEE, Michigan           CHIP ROY, Texas
JIMMY PANETTA, California            DANIEL MEUSER, Pennsylvania
JOSEPH D. MORELLE, New York          WILLIAM R. TIMMONS IV, South 
STEVEN HORSFORD, Nevada                  Carolina
ROBERT C. ``BOBBY'' SCOTT, Virginia  DAN CRENSHAW, Texas
SHEILA JACKSON LEE, Texas            KEVIN HERN, Oklahoma
BARBARA LEE, California              TIM BURCHETT, Tennessee
PRAMILA JAYAPAL, Washington
ILHAN OMAR, Minnesota
ALBIO SIRES, New Jersey
SCOTT H. PETERS, California
JIM COOPER, Tennessee

                           Professional Staff

                      Ellen Balis, Staff Director
                  Dan Keniry, Minority Staff Director
                                
                                
                                CONTENTS

                                                                   Page
Hearing held in Washington D.C., June 26, 2019...................     1

    Hon. John A. Yarmuth, Chairman, Committee on the Budget......     1
        Reports submitted for the record.........................     4
        Statement submitted for the record.......................    46
        Reports submitted for the record.........................    59
        Prepared statement of....................................   117
    Hon. Steve Womack, Ranking Member, Committee on the Budget...   119
        Prepared statement of....................................   121
    Tom Jawetz, Vice President, Immigration Policy, Center for 
      American Progress..........................................   123
        Prepared statement of....................................   126
    Abdirahman Kahin, Owner, Afro Deli...........................   137
        Prepared statement of....................................   139
    Sari Pekkala Kerr, Ph.D., Senior Research Scientist, 
      Wellesley Centers for Women, Wellesley College.............   143
        Prepared statement of....................................   145
    The Honorable Douglas J. Nicholls, Mayor, Yuma, Arizona......   153
        Prepared statement of....................................   155
    Hon. Ilhan Omar, Member, Committee on the Budget, profile 
      submitted for the record...................................   162
    Hon. Bill Flores, Member, Committee on the Budget, letter 
      submitted for the record...................................   166
    Hon. John A. Yarmuth, Chairman, Committee on the Budget, 
      letter submitted for the record............................   214
    Hon. Sheila Jackson Lee, Member, Committee on the Budget, 
      statement submitted for the record.........................   217
    Hon. David E. Price, Member, Committee on the Budget, 
      questions submitted for the record.........................   223
    Answers to questions submitted for the record................   224

 
                    BUILDING A MORE DYNAMIC ECONOMY:
                      THE BENEFITS OF IMMIGRATION

                              ----------                              


                        WEDNESDAY, JUNE 26, 2019

                          House of Representatives,
                                   Committee on the Budget,
                                                   Washington, D.C.
    The Committee met, pursuant to call, at 10:00 a.m., in Room 
210, Cannon House Office Building, Hon. John A. Yarmuth 
[Chairman of the Committee] presiding.
    Present: Representatives Yarmuth, Omar, Higgins, Doggett, 
Price, Morelle, Lee, Jayapal, Sires, Peters, Schakowsky, 
Moulton, Jackson Lee, Horsford, Womack, Smith, Flores, Holding, 
Stewart, Crenshaw, Hern, Meuser, Timmons, Burchett, Woodall, 
Johnson, and Roy.
    Chairman Yarmuth. The Committee will come to order.
    Good morning and welcome to the Budget Committee's hearing 
on Building a More Dynamic Economy: The Benefits of 
Immigration. June is Immigrant Heritage Month, so it is a great 
time to recognize and celebrate the cultural and economic 
contributions immigrants make to our country.
    I want to welcome our witnesses here with us today. This 
morning, we will be hearing from Mr. Tom Jawetz, vice president 
of immigration policy at the Center for American Progress. Glad 
to welcome Mr. Jawetz back to his old stomping ground. Before 
joining the Center for American Progress, Mr. Jawetz spent 
seven years working under Ms. Lofgren as the chief counsel for 
the Immigration Subcommittee of the House Judiciary Committee.
    We also will be hearing from Mr. Abdirahman Kahin, one of 
Ms. Omar's constituents and the owner of Afro Deli in 
Minnesota. We will be hearing from Dr. Sari Kerr, senior 
research scientist at Wellesley College, and the Honorable 
Douglas Nicholls, the Mayor of Yuma, Arizona.
    Welcome to all of you and thank you for being here today. 
We appreciate you taking time out of your schedules to testify 
before the Committee.
    Now we will have opening statements. I yield myself five 
minutes for my opening statement.
    Every day that we wait to fix our broken immigration 
system, more families are separated, children face horrendous 
conditions in detention centers, businesses face uncertainty, 
and we miss out on new economic opportunities.
    I spent most of 2013 as part of a bipartisan group of eight 
House Members meeting privately every day for seven months, 
working toward comprehensive immigration reform. And despite 
the current climate that makes it seem like there is no room 
for agreement on this issue, we were successful in forming a 
bold bipartisan package we were confident would have passed the 
House had it been brought to the floor. It was a true 
bipartisan compromise, one that would have kept families 
together, protected our borders, and provided pathways to 
citizenship. And it was shelved because of politics.
    By holding this hearing and pointing the spotlight on the 
economic benefits and opportunities of comprehensive 
immigration reform, it is my hope that the Budget Committee can 
re-start the process. That we can establish some common ground 
and help set the stage for bipartisan compromise that my 
experience tells me Democrats and Republicans can find.
    We all share a desire and a responsibility to improve our 
economy and our budget outlook, and we have a great opportunity 
to do that through an immigration system that brings 
hardworking and creative people to our country.
    Without question, our economy needs it. The Congressional 
Budget Office released its long-term budget outlook yesterday, 
and it confirms some of what we already know: working-age 
Americans will account for a smaller portion of our total 
population. The cost of stalwart programs like Medicare and 
Social Security are increasing as our elderly population grows. 
And deficits continue to rise.
    One way to improve our economic outlook and strengthen our 
fiscal position is by passing reforms that recognize both the 
cultural and economic contributions of the people who seek to 
make a home here. Welcoming more immigrants to the United 
States would boost GDP, increase business dynamism, enhance our 
ability to compete globally, shrink our deficits, and improve 
our long-term fiscal outlook.
    It is also the only realistic solution for addressing the 
slow growth of our labor force and alleviating some of our 
demographic challenges that put even greater pressure on 
federal budgets.
    Immigrants, both documented and undocumented, have already 
helped extend the solvency of Social Security and Medicare, two 
of the biggest drivers of our long-term budget challenges. 
Increasing immigration would continue to improve the financial 
outlook for these vital programs.
    And there's more. America would not have its reputation as 
a nation of innovation and entrepreneurship without 
immigration.
    That's not just my opinion. The U.S. Chamber of Commerce 
and business leaders across the political spectrum would be the 
first to point out that first-generation Americans create 25 
percent of all new businesses in the United States, with the 
share rising to as much as 40 percent in some states. Almost 
half of the companies in the Fortune 500, and more than one in 
four small businesses in the U.S., were founded by immigrants. 
Many of these industry-shaping entrepreneurs immigrated to the 
U.S. as children or as students.
    So it is clearly an economic priority to make sure our 
current young immigrants and DREAMers can remain here as 
important contributors to our society. It also happens to be 
the right thing to do.
    Aside from invigorating our economy, immigrants also 
strengthen our fiscal health. The CBO estimated that had 
Congress enacted the bipartisan legislation that the Senate 
passed in 2013, we could have boosted real GDP by more than 5 
percent and reduced the deficit by nearly $900 billion by 2033.
    Today immigrants and their descendants already contribute 
billions of dollars in much-needed revenue each year, putting 
far more into the system than they get back through social 
programs. The U.S. Department of Health and Human Services 
found that refugees strengthened federal, state, and local 
budgets over the last decade, bringing in $63 billion more in 
revenue than public services used, a finding the Trump 
Administration tried to suppress.
    Comprehensive immigration reform is not optional. It is 
necessary, and it is urgent. By failing to reflect our true 
national needs, current policies hurt our economy and prevent 
us from addressing some of our biggest fiscal challenges.
    And let's not lose sight of who wants us to enact reform 
legislation. Everyone from the U.S. Chamber of Commerce, to 
Labor Unions, Law Enforcement, the Faith Community, the 
Agriculture Community, and countless other organizations and 
interest groups agree that immigration reform is key to our 
nation's future.
    Today, with compelling evidence of the economic benefits of 
reform, I hope we will be able to add more of our colleagues to 
the long list of supporters.
    And before I recognize the Ranking Member, I have a couple 
of unanimous consent requests.
    I ask unanimous consent to submit four reports from the 
Bipartisan Policy Center entitled ``Culprit or Scapegoat: 
Immigration's Effect on Employment and Wages''; ``Recent 
Immigration Has Been Good for Native-Born Employment''; ``Don't 
Neglect the Benefits of Lesser-Skilled Immigration''; and, 
``Worsening Labor Shortages Demonstrate Need For Immigration 
Reform.'' I ask that all four of those be placed in the record. 
Without objection, so ordered.
    [The information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Yarmuth. I also ask unanimous consent to submit a 
statement for the record from the National Immigration Forum. 
Without objection, so ordered.
    [The information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Yarmuth. And finally, I ask unanimous consent to 
submit two reports from the New American Economy on how 
diversity raises wages and the contributions of immigrants as 
entrepreneurs. Without objection, so ordered.
    [The information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Yarmuth. I now yield five minutes to the Ranking 
Member, Mr. Womack, for his opening statement.
    [The prepared statement of Chairman Yarmuth follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Womack. I thank you, Chairman. Thank you for your 
leadership on this Committee.
    My colleagues across the aisle have called this hearing 
today to talk about the budgetary and economic impacts of 
immigration. I welcome the opportunity to explore bipartisan 
solutions that will improve our immigration policies and 
further strengthen our economy.
    Unfortunately, we must first address the crisis at our 
southern border, a crisis that both sides acknowledge has to be 
managed. For those who have questioned the seriousness of the 
situation, I want to quickly recap what has been happening.
    Over 100,000 migrants are trying to illegally enter the 
country each month, placing enormous pressure on Customs and 
Border Protection agents and communities along the border. Last 
month, 144,000 migrants were apprehended by CBP agents, a 32 
percent increase from the previous month.
    To put these numbers in perspective, the number of 
apprehensions in April of 2019 is 591 percent greater than 
April of 2017--591 percent. At this rate, a total of over 1 
million migrants are projected to have illegally crossed the 
border this fiscal year.
    The systems and infrastructure we have in place are 
terribly insufficient to handle this level of migration. And as 
Mayor Nicholls of Yuma, Arizona, will tell us today, it is our 
local communities that are having to pay the price. I, too, was 
a mayor once upon a time, and even though I was not in a border 
state, the effects of this phenomenon were felt even in my 
city.
    Our majority has had several opportunities to advance 
bipartisan solutions that would provide relief to these 
communities and begin to address the crisis at the border. For 
nearly two months, they have refused to act.
    I fear that last night's vote was an unfortunate loss of 
precious time. This is a situation where Congress clearly needs 
to come together and act swiftly. I am sorry to say we are 
falling short of the basic obligations of our jobs here.
    Another costly partisan proposal they have championed is 
H.R. 6, a bill that failed to address the immediate challenges 
facing communities like Yuma and that is expected to cost at 
least $30 billion in new mandatory spending over the next 10 
years, according to estimates from the Congressional Budget 
Office. Another $30 billion of federal mandatory spending, that 
is, spending that is set to autopilot.
    How do my friends on the other side of the aisle plan to 
pay for it? Well, they don't. They did not include a single 
offset in H.R. 6 as they waive their own ``Pay-As-You-Go'' rule 
to pass it.
    Further, I expect to hear today the false claim that 
immigration reform can improve the financial stability of the 
Social Security Trust Fund, projected to become insolvent by 
2032. The problem with this notion, you are only looking at 
half the equation, those who would pay into the system. When 
you consider the other half of the equation, those who would 
receive benefits, the math doesn't add up.
    In fact, the Social Security Administration's Chief Actuary 
testified in 2015 granting amnesty to 5 million illegal 
immigrants would only extend the solvency of the program by 90 
days. That is it. Hardly the Social Security savior some of our 
friends like to claim.
    The truth is, I believe immigration reform, done right, can 
have a positive effect on the economy and on the federal 
budget. Immigration, after all, is what our great nation was 
built on.
    I am particularly interested in how we can improve our visa 
program to meet the demands of our growing labor market and 
create even more opportunity for hardworking families. I know 
this is a priority for job creators in my district and across 
the country.
    The same goes for USMCA, a modernized trade agreement with 
Mexico and Canada that cities on the border and across the 
country are counting on. As Mayor Nicholls explains in his 
written testimony, USMCA is critical for Yuma's economy and 
creating jobs for current and future visa holders.
    In April, I spent an entire week back home talking with 
local workers, entrepreneurs, and business leaders about the 
need to finalize this important pact, which will create more 
than 100,000 jobs alone in my state.
    If this Committee truly wants to build a more dynamic 
economy, we should focus on the benefits of the USMCA, which 
will strengthen trade with two of our largest trading partners 
and make American businesses more competitive around the world.
    It is clear we have a lot of opportunity to strengthen our 
economy and the federal budget, but before we can deliver 
meaningful reforms, we must ensure our communities are safe and 
our borders are secure. I look forward to discussing how we do 
that today.
    And with that, Mr. Chairman, I welcome the witness 
testimony, and I yield back my time.
    [The prepared statement of Steve Womack follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Yarmuth. I thank the Ranking Member for his 
opening statement.
    And once again, I want to welcome all four of our 
witnesses. Each of you will have five minutes for your opening 
statements.
    By the way, if any other Member of the Committee has an 
opening statement, they may submit it in writing for the 
record. But each of you will have five minutes for your 
testimony, and your written remarks have been entered into the 
formal record.
    And so I will first recognize Mr. Jawetz for five minutes, 
and you may begin when you are ready.

 STATEMENTS OF TOM JAWETZ, VICE PRESIDENT, IMMIGRATION POLICY, 
  CENTER FOR AMERICAN PROGRESS; ABDIRAHMAN KAHIN, OWNER, AFRO 
  DELI; SARI PEKKALA KERR, PH.D., SENIOR RESEARCH SCIENTIST, 
    WELLESLEY CENTERS FOR WOMEN, WELLESLEY COLLEGE; AND THE 
      HONORABLE DOUGLAS J. NICHOLLS, MAYOR, YUMA, ARIZONA

                    STATEMENT OF TOM JAWETZ

    Mr. Jawetz. Chairman Yarmuth, Ranking Member Womack, and 
Members of the Committee, thank you for inviting me to testify 
this morning.
    So when I think of the contributions that immigrants of all 
backgrounds, skills, and levels of educational attainment make 
to our country, I am often reminded that my former boss and 
your colleague, Representative Zoe Lofgren, describes 
immigrants as people who have enough get up and go to get up 
and go.
    While people often think about immigrants in traditional 
gateway places, like New York, Chicago, San Francisco, in 
recent years, recent decades, immigrants have found new 
opportunities for themselves and their families in new 
gateways, like Atlanta, Charlotte, and Nashville, as well as in 
the suburbs.
    Immigrants are breathing new life into rural communities. 
Late last year, the Center for American Progress did a new 
study that found that immigrants ameliorated population decline 
in nearly four out of five rural places in this country and 
were entirely responsible for population growth in one out of 
five rural places.
    Instead of hospitals closing, schools consolidating, 
businesses drying up, in these communities immigrants are 
opening small businesses, they are providing essential 
healthcare services, rejuvenating downtown areas, and both 
filling and creating jobs. Immigrants are also contributing 
their food, music, culture, and language.
    Immigrants also will help to ensure our continued shared 
prosperity in the years ahead. As baby boomers retire, 
immigrants will disproportionately work as their doctors, 
nurses, and home health aides.
    Immigrants and their children also will fill enormous holes 
in the workforce left behind as they retire. Over the next 10 
years, without immigrants and their children, the country's 
working age population would plummet by 7 million people. These 
immigrants' payroll taxes will shore up the country's social 
safety net for years to come and help to ensure we honor the 
commitment we made to older Americans now turning to us for 
support.
    Refugees also are making important contributions, 
particularly in places like Utica, New York, Clarkston, 
Georgia, and Fargo, North Dakota. Although the image of a 
refugee we are often presented with--and this is equally true 
of asylum seekers now requesting protection at the southwest 
border--is that of a person who comes with little more than the 
clothes on their back, this fails to capture the drive and 
perseverance that it takes to leave everything you have known 
to find safety someplace else and start again.
    Despite the obstacles, that drive is what helps to ensure 
that refugees thrive in America. They have high labor force 
participation rates and become a net economic positive for the 
country within just eight years of arrival.
    I have been speaking so far about all immigrants, both 
documented and undocumented, but I want to focus now on the 
10.5 million undocumented immigrants in the country, paying 
particular focus to the 7 million who are in our workforce 
today.
    According to CBO and JCT, the comprehensive immigration 
reform bill that passed the Senate in 2013, which would have 
provided a path to citizenship for these individuals, would 
have decreased federal budget deficits by approximately $1 
trillion dollars and increased the nation's GDP by 5.4 percent 
over 20 years. Average wages for all workers would have 
increased by 10 years.
    By contrast, in 2016, CAP worked with two leading 
economists to find that removing undocumented workers from our 
workforce would, in the long run, reduce the nation's GDP by 
2.6 percent and reduce cumulative GDP over 10 years by $4.7 
trillion. Some industries would see workforce reductions of up 
to 18 percent.
    In my testimony, you will see a table showing that the 23 
states represented by Members of this Committee would 
experience GDP losses totaling more than $350 billion annually 
from such a policy. Each state would experience key losses in 
key industries, including a 13 percent loss in GDP from North 
Carolina's construction industry and a 12 percent loss in GDP 
from Texas' leisure and hospitality industry.
    With respect to DREAMers and TPS and DED holders, earlier 
this month the House did pass H.R. 6, the American Dream and 
Promise Act, which would offer protection for people like 
Donaldo Posadas Caceres. Mr. Posadas is a TPS holder and member 
of the International Union of Painters and Allied Trades, who 
for the past 20 years has been working on some of the country's 
tallest bridges, helping to make necessary repairs and hanging 
larger-than-life American flags.
    Attached to my testimony is a table showing that nearly 
240,000 people from your congressional districts would benefit 
from this bill. The individuals and their households pay 
billions annually in federal, state, and local taxes, in rental 
payments and home mortgages.
    Everyone knows our immigration system is broken. Before 
joining CAP, I spent seven years working for the House 
Immigration Subcommittee and was involved in two major 
bipartisan efforts to try to come up with a solution for that 
system. I think the Chairman would agree that the negotiations 
that we were involved in, in 2013, were spirited, but members 
on both sides of the aisle genuinely thought they were coming 
together to solve a problem for this country.
    What gives me a hope that we will find a way back to those 
conversations in the years ahead is that despite the deluge of 
negative attacks that we hear constantly on immigrants and 
refugees, more than three-quarters of Americans now say 
immigration is a good thing for this country, the highest level 
in decades. A greater share of the American public also 
believes that immigration levels to this country should 
increase or stay the same than at any time since Gallup has 
polled that question in 55 years.
    Americans want real solutions, and they want an immigration 
system that actually works, and that works as designed. If we 
can do that, if we can establish a well-functioning, 
modernized, and humane immigration system that both lives up to 
our nation's past and works for our nation's present and 
future, we can be true to the vision of this country as a 
nation of laws and a nation of immigrants and can begin to 
restore respect for the rule of law in that system. Moreover, 
we can position this country to harness the full economic 
benefits that immigration holds.
    Thank you so much, and I look forward to your questions.
    [The prepared statement of Tom Jawetz follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Yarmuth. Thank you for your testimony.
    I now recognize Mr. Kahin for five minutes.

                 STATEMENT OF ABDIRAHMAN KAHIN

    Mr. Kahin. Chairman Yarmuth, Ranking Member Womack, and 
Members of the Committee, thank you for the opportunity to 
speak with you. My name is Abdirahman Kahin, and I am the owner 
of Afro Deli and Grill, a small fast casual chain of 
restaurants in Minnesota.
    I am here today to share my humble experience and my 
perspective on the positive impact immigrants have in every 
district in America.
    Today, I share my personal story, but I wouldn't be here 
before you without the support of many others who have walked 
similar paths. I immigrated to the United States in 1996, and I 
have been blessed to call the state of Minnesota my home since 
1997.
    I came to the U.S. like many immigrants, to find safety and 
opportunity as an asylum seeker, a young man from Somalia 
without much experience or skills.
    In Minnesota, I found a rich immigrant community from all 
over the globe and an opportunity to create the life I always 
dreamed of. My first job was as an overnight parking attendant, 
which was perfect because it allowed me to go to ESL classes in 
the evening before work. After that, I was able to attend 
community college and learn the skills I needed to start my 
first business, a media production company.
    In the 10 years after, I open several other businesses 
before I found my passion in the hospitality industry. My 
American Dream evolved, and now I wanted to open my own unique 
restaurant with a new concept: healthy, with fresh ingredients, 
accessible African food, and welcomes everyone.
    I realized my dream in 2010 when I opened Afro Deli. In 
Afro Deli, I saw a vehicle to bridge cultures, build a 
successful business, and contribute back to my community in a 
meaningful way. We now have expanded to three locations and 
with a fourth location opening next month. We have over 60 
employees and consultants.
    Afro Deli's culture is rooted in the belief that good food 
has the power to bring people together. When we sit down to 
eat, we share a common connection to the world, through the 
ingredients in our dishes.
    Our staff is as diverse as our customers. We often joke 
that Afro Deli is the only place in Minnesota where a Japanese 
American cooks African food.
    We are so proud to offer good jobs in a supportive and 
inclusive workplace. The restaurant business can be a 
challenge, and I have been successful by focusing on supporting 
my hardworking staff. This is why I champion paid sick leave, 
something Afro Deli has always offered to staff, to push other 
small business owners to support working families, improve 
working conditions, and reduce turnover. In addition, we have 
been able to provide other benefits, too, including vacation 
time and parental leave for new mothers and fathers.
    We take pride in being a diverse organization where 
Americans of different origins work together. Afro Deli 
directly supports local initiatives and community organizations 
that do good. We offer donations of food, money, and time to a 
wide variety of good causes. It is part of our DNA.
    Whether it is spearheading an initiative like Dine Out for 
Somalia to raise money for the famine relief effort in 2017, or 
offering free meals to our furloughed neighbors as a small 
token of our appreciation for their public service, giving back 
is an important part of my company.
    Personally, I have been honored to serve on several local 
and national boards, and I encourage my staff to do so as well.
    Our efforts to contribute to our local community don't end 
with nonprofit partners. Afro Deli is also a partner with local 
farmers and small business owners where possible. This means 
the majority of our meats, produce, or other ingredients are 
sourced locally from the locals, with most of them minority- or 
women-owned as well.
    Afro Deli is an integral part of the fabric of Minnesota. 
We are so proud to be a product of Minnesota, and we believe we 
represent the best our state has to offer.
    My goal is to continue expanding and open in every city 
across the state and across the country, becoming the first 
national African restaurant chain in the U.S. I want to grow so 
I can share our food, our culture, our values, and create more 
jobs across the country. I believe food has no borders and has 
the power to convene people in meaningful ways.
    Thank you very much.
    [The prepared statement of Abdirahman Kahin follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Yarmuth. Thank you for your testimony.
    I now recognize Dr. Kerr for five minutes.

             STATEMENT OF SARI PEKKALA KERR, PH.D.

    Dr. Kerr. Thank you. Thank you, Chairman Yarmuth, Ranking 
Member Womack, and all Members of the Committee for inviting me 
to speak today. My name is Sari Kerr. I am a senior research 
scientist at Wellesley College. I am an economist, and my 
research focuses on the labor market, immigration, and 
entrepreneurship. And today, I will tell you about my work 
related to immigrant entrepreneurs.
    As economists, we know a lot about immigration's impact in 
the labor market, with many scholars having asked whether the 
increased labor supply displaces native workers or lowers 
wages. The answer is typically no or very little. Instead, 
immigrants have been found to benefit their host economy, 
economically and fiscally.
    However, we know rather little about immigrants as founders 
of new firms and creators of jobs, as actors who actually 
increase the demand for labor and supply wages for local 
workers. This distinction is rather important as there are 
typically few concerns in the entrepreneurship arena that one 
startup would displace another.
    For the last five years, I have studied the role of 
immigrant entrepreneurs in the U.S., and today I would like to 
highlight some key findings from that research.
    So first, immigrants start an increasingly large share of 
all new employer firms in the U.S. From 1995 to 2012, that 
share went from 16 to 25 percent. So just over one in four new 
employer firms have at least one owner who was born outside of 
the U.S. now, and that is twice the share of immigrants in the 
population of the United States.
    The immigrant entrepreneurship has also boomed at the same 
time when the overall rate of business startups in America has 
been falling, making them even more important.
    Second, the role of immigrant entrepreneurs is large in the 
high-tech sector, but just as large in other sectors of the 
economy. The high-tech sector, 29 percent of new firms have at 
least one immigrant owner, whereas in other industries the 
share is 26 percent.
    And we see that immigrant firms are especially concentrated 
in the service sector, accommodation and food, professional and 
technical services, healthcare and social services, as well as 
in retail trade.
    Third, the U.S. states definitely differ greatly in terms 
of the share of firms that are owned by immigrants. But in all 
states in all cases, immigrants start more firms on a per 
capita basis than natives do. If we look at the least dependent 
states, like Montana, the Dakotas, and Idaho, we notice that 
about 6 percent or less of the new firms are founded by 
immigrants, whereas in California, New Jersey, and New York, 
that share is more than 40 percent.
    But wherever we look, immigrants are more likely to start 
companies than natives are. So, for example, in 2007, about 3 
percent of Kentucky's population was born outside of the United 
States, but 9 percent of all new employer firms in Kentucky in 
that year had immigrant owners.
    Fourth, the job creation share of immigrant entrepreneurs 
is also high. The average immigrant-owned firm hires slightly 
fewer employees than the average native-owned firm, but 
nevertheless, they account for about 23 percent of all jobs 
created in these young employer firms we looked at. This is 
very important as young firms tend to account for almost all of 
the net job growth in America.
    And my final point is that the jobs that immigrant 
entrepreneurs create pay somewhat less and provide a little bit 
somewhat fewer benefits in terms of paid time off, retirement 
savings accounts and health insurance, and that comes largely 
from their concentration in those three key sectors that I 
mentioned.
    If I look at high-tech sectors, then immigrant-owned firms 
actually pay higher wages and offer relatively similar employee 
benefits as the native-owned firms. And, again, if I compare 
apples to apples, where my apples are firms that are very 
similar in terms of all their observable traits, then the jobs 
created by immigrant entrepreneurs look very similar as those 
created by native owners of firms.
    As a conclusion, I would like to state that the 
contribution of immigrant entrepreneurs to the U.S. economy is 
quite significant and often not fully recognized even among the 
dedicated immigration and entrepreneurship scholars. The U.S. 
landscape in terms of firms and jobs would look rather 
different without the immigrant entrepreneurs.
    I am very happy to answer any questions you may have today, 
and I thank you again for this opportunity to come and talk.
    [The prepared statement of Sari Pekkala Kerr follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Yarmuth. Thank you, Dr. Kerr, for your testimony.
    I now recognize the Honorable Mayor of Yuma, Arizona, Mr. 
Nicholls, for five minutes.

         STATEMENT OF THE HONORABLE DOUGLAS J. NICHOLLS

    Mr. Nicholls. Thank you very much, Chairman Yarmuth and 
Ranking Member Womack and Committee Members for this community 
today to speak to you about immigration and the impact on the 
Yuma community.
    I am Doug Nicholls, the Mayor of the City of Yuma. And just 
to give you little background on Yuma, Yuma has 100,000 people 
year round. Our location is where Arizona, California, and 
Mexico meet. So we are right on the southern border.
    Our county has a GDP of $5 billion, with $3.5 billion 
associated with the agricultural industry. And that industry 
produces 90 percent of the leafy green vegetables the United 
States and Canada consume during the winter season.
    That requires 50,000 agricultural workers to make that 
happen. They are comprised of 3,800 H-2A visa holders, over 
30,000 domestic workers, and 15,000 workers that cross the 
border each day to work in the United States and then return 
home each night to their homes in Mexico.
    So as you can see, the immigration system is vitally 
important to the Yuma agricultural industry. However, the guest 
worker program is cumbersome and truly doesn't meet the needs 
of the industry.
    Yuma lost 10,000 potential acres of fresh produce to 
Guanajuato, Mexico, and also lost $2 billion worth of 
opportunity in building agricultural infrastructure to support 
that industry. And that is because of a lack of consistent and 
sustainable skilled labor work sources.
    On the medical front, Yuma is designated a health 
professionals shortage area. So our hospital reaches out and 
utilizes the H-1B visa program, the J-1 visa program, and the 
T-1 visa program in order to fill an average of five doctor 
slots every year for our community.
    However, the most pressing situation that we have at this 
time is the release of migrant families in Yuma by the U.S. 
Border Patrol. When the crisis began in March, I brought 
together all the nonprofits to see how we could set up a 
temporary 200-bed shelter system in order to address the 
humanitarian concerns of the migrant families being released 
and also address the public safety concerns with the community.
    On April 16, the capacity of that shelter was exceeded, and 
I had to declare a local emergency. A few days later, we had 
over 300 people in the shelter, and we had to close the door to 
new migrant families. That has happened three more times since 
that first event.
    To date, we have had 5,146 people come through that shelter 
system in three months. This is completely unsustainable.
    In those three months, the NGOs have spent $700,000, have 
provided 93,000 pounds of food and clothing, and have 
contributed thousands of hours of volunteer time. The hospital 
has seen 1,300 migrant patients since the beginning of the year 
at a cost of over $800,000, and only one-third of that cost is 
reimbursed by the government.
    Our trade and port operations have been compromised. The 
reallocation of 37 temporary duty customs agents has reduced 
the San Luis Port of Entry from eight lanes to five lanes, 
which has increased border wait times an amazing 46 percent. 
That is 1.2 million trips through the port that no longer will 
impact our sales tax and tourism.
    Border Patrol closed the checkpoints on the interstates to 
reallocate personnel at a time when our communities are 
experiencing a record level of fentanyl and methamphetamine 
transportation through the communities.
    But an unquantifiable impact is the negative perception of 
the border communities in terms of investment and tourism. The 
Yuma County Chamber of Commerce reports that since the 
beginning of the year, they have had a 50 percent reduction in 
relocation packet requests. Our Greater Yuma Economic 
Development Corporation reports that 2 multimillion dollar 
projects that were slated for Yuma were redirected to Mexico 
due to the perception of port issues and timely movement of 
workers.
    The status of immigration is a critical issue for Yuma, and 
the humanitarian issues are real. The community needs effective 
immigration policies for trade and commerce. However, the drain 
of resources and the strain on the community needs to stop.
    Thank you for your time and your attention, and on behalf 
of the people of Yuma, I invite the members to come visit Yuma 
and experience the border firsthand. Thank you.
    [The prepared statement of Douglas J. Nicholls follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Yarmuth. Thank you, Mayor Nicholls.
    Thanks once again for all of your testimony. We will now 
begin our question-and-answer session.
    As a reminder, members can submit written questions to be 
answered later in writing. Those questions and the answers of 
the witnesses will be made part of the formal hearing record. 
Any member who wants to submit a question for the record may do 
so within seven days.
    As is our habit, the Ranking Member and I are going to 
defer our questions until last. So I now recognize, as a matter 
of courtesy, the gentlelady from Minnesota, Ms. Omar, for five 
minutes.
    Ms. Omar. Thank you, Chairman Yarmuth.
    Thank you to all of you for testifying. [Speaking foreign 
language.] It is really wonderful to see you here. Thank you so 
much for accepting our invitation to come and testify and tell 
us about the wonderful successes immigrants are having in 
Minnesota.
    I am a little disappointed you didn't bring us Afro Deli 
tea and sambusas. I was showing pictures to my colleagues of 
your restaurant and what it offers. It is one of my favorite 
places to spend time in.
    So I wanted to talk about the economic impact of 
immigrants. There was a project called Map the Impact from New 
American Economy, which is a bipartisan research, that showed 
how immigrants are having an economic growth--driving economic 
growth in every region of the country.
    Particularly in our district, immigrants have paid $760 
million in taxes last year. We contributed $2 billion in 
spending power. Again, this isn't just in Minnesota's Fifth 
District. It's statewide. Immigrants paid more than $4 billion 
in taxes and contributed $11.5 billion in spending power.
    In Minnesota, there are more than 22,000 immigrant-owned 
businesses that employ more than 35,000 people. One of those 
entrepreneurs and people who are having successes is you.
    When we think about the kind of saying that was used, you 
know, we get going, you became an entrepreneur just a few years 
after entering the United States and have been quite 
successful. You have been featured in the New American Economy. 
There was a profile of you last August, which I would love to 
enter into record.
    Chairman Yarmuth. Without objection.
    [The information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Omar. You talked about the kind of opportunities that 
were afforded to you in Minnesota and how the Minneapolis 
community has contributed to your success. Could you talk a 
little bit about some of the policies that we have in 
Minneapolis that have impacted your success as an entrepreneur?
    Mr. Kahin. I think the most successful impact that we have 
in Minnesota is because the people of Minnesota are very warm 
people and very welcoming people. And especially the economic 
development from locals in the state and county level is very 
encouraging people to do business. And because of that, I think 
I maneuver the system, and I encourage most of my family and 
friends to start business, because I think that is the easiest 
place to start a business, I think, across the country.
    Ms. Omar. I mean, we say in Minnesota, it is a cold place, 
but the people have warm hearts.
    Mr. Kahin. Exactly.
    Ms. Omar. And that certainly has an emotional impact on all 
of us and allows us to have the kind of successes we have had.
    Mr. Kahin. That is right.
    Ms. Omar. So thank you so much for creating employment 
opportunities for so many Minnesotans and for being a shining 
example for what immigrants can do in this country.
    Mr. Jawetz, I wanted to talk to you about the kind of 
impact the Muslim ban has had. Today is the one-year 
anniversary of the Supreme Court ruling. And so if you can tell 
us a little bit about the kind of impact--economic impact--the 
Muslim ban has had on our economy.
    Mr. Jawetz. Yeah. So thank you so much, Congresswoman.
    Today is the one-year anniversary since the Supreme Court 
allowed the third iteration of the Muslim ban, the travel ban, 
to go into effect. And as you all may know, the case is still 
under litigation right now.
    One of the things the Supreme Court relied upon in their 
ruling was this waiver process that had been set up by the 
State Department to grant waivers of people who were subjected 
to the ban. We now know over a year that about 5 percent of 
those waivers are being granted.
    Consular officers say that they don't actually have 
authority to grant the waivers. They can just send them to 
headquarters where they get sent into a black hole.
    You have got people who have been waiting now for--a third 
of the people basically who were in the line, according to a 
new collection by Georgetown, shows that they have been waiting 
for two years or more for their visas to be adjudicated.
    Marketplace actually did a recent piece looking at small 
businesses owners who are seeing their businesses stifled as a 
result of the travel ban and their inability to get workers.
    You also, of course, see the impact on families, U.S. 
citizens, around the country who are being forced to remain 
separated from their family members.
    And one of the really nefarious effects of this, of course, 
is if you look at the impact on admissions to this country for 
people from Muslim-majority countries, it has plummeted, more 
than a 90 percent drop over two fiscal years for people from 
Muslim-majority countries, and our refugee program, about a 30 
percent drop in the immigrant visa program, and about a 20 
percent drop in temporary visitors.
    So across the board, we are reshaping what admissions and 
immigration and visitors to this country will look like.
    Ms. Omar. Thank you. I yield back.
    Chairman Yarmuth. The gentlelady's time has expired.
    I now recognize the gentleman from Missouri, Mr. Smith, for 
five minutes.
    Mr. Smith. Thank you, Mr. Chairman.
    Mr. Chairman, I would like to submit into the record for 
Representative Bill Flores, who had to leave for the Energy and 
Commerce Committee, a letter that he has from the Mayor of El 
Paso.
    Chairman Yarmuth. Without objection.
    [The information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Smith. Thank you, Mr. Chairman. Thank you for holding 
this hearing today.
    Yesterday CBO released its forecast for our nation's long-
term fiscal stability. The numbers are shocking: $80 trillion 
in new deficits over the next 30 years. Yet we have no plans 
from the other side on how they would address this crisis.
    It is time for them to step up with a budget. It has been 
72 days. I keep counting the days, keep addressing the numbers 
at every one of our Budget Committee hearings, hoping the other 
side will present a budget.
    We are the Budget Committee. We need to present a budget. 
We are 72 days past due. In order for us to address our 
priorities, we need to have a budget.
    It is clear that we agree that legal immigration can have a 
positive impact on our economy. I said legal immigration.
    We know how good our economy is right now. We have all 
heard the numbers about job openings. In fact, in April, the 
number of job openings exceeded the number of unemployed by the 
largest margin on record, 1.5 million more jobs available in 
this country than people seeking employment--1.5 million more 
jobs available than people seeking employment.
    We have had 15 months of unemployment under 4 percent--15 
straight months--10 straight months of wage growth, 5.8 million 
new jobs since President Trump was elected.
    Those are wonderful numbers. No one can deny the economy is 
doing very well under this Administration.
    In southeast Missouri, we know the positive impact legal 
immigrants can have on communities and local economies. We have 
many examples. A specialty doctor in Poplar Bluff, Missouri, 
who helps the medically underserved. A restaurant owner in 
Farmington, Missouri, originally from China, who is not only a 
successful business owner, but an incredible community leader 
who volunteers and helps out needy students.
    In my district we also have Missouri S&T, a leading STEM 
University. Many foreign students who graduate from S&T go on 
to great jobs here in America in advanced technology fields. My 
office has helped many of these students pursue their career 
goals through obtaining visas.
    Where we disagree is on the issue and the impact of illegal 
immigration. But it wasn't that long ago that Democrats and 
Republicans seemed to be on the same page. President Clinton 
deported 800,000 people. President Bush deported 2 million. 
President Obama deported 2.9 million people. Right now, 
President Trump actually has a lower deportation rate than 
President Obama did at the same point in his Administration.
    What we need to understand, these deportations of the 
numbers that I just said are people that went through the 
courts, the courts ruled that they needed to be deported after 
having their appropriate hearings, or they are individuals that 
are criminals. So our system can function in regards to that if 
we just allow it to work.
    I went to the border just a few weeks ago and saw firsthand 
what the men and women in our Border Patrol face every day. It 
has been 57 days since President Trump asked for emergency 
funding. HHS runs out of money next week. We have 19,000 
migrants currently in custody for a system designed to hold 
4,000 people.
    Securing our border and enforcing our laws is the only way 
to help solve this problem. The situation will only get worse 
if we all don't come together.
    Mr. Chairman, I see that my time is about to expire before 
I can even ask a question, so I will yield back.
    Chairman Yarmuth. I thank the gentleman. His time has 
expired.
    I just want to mention, in relation to your comments on the 
budget, as of tomorrow the Democratic House will have 
appropriated 97 percent of all federal spending. So there will 
be a very clear picture of what House Democrats' budget 
priorities and values are at that time.
    I now yield five minutes to the gentleman from New York, 
Mr. Higgins.
    Mr. Higgins. Thank you, Mr. Chairman.
    I think one of the things that we have lost in this country 
is our national story, because it is an exodus story. For more 
than 250 years people fled persecution from all over the world. 
They crossed seas and deserts for the freedom found in the 
promised land.
    This Administration has made policy decisions that deny 
fundamental rights to migrants and has unjustly separated 
families for acts that are not criminal violations.
    Nearly one-quarter of all new businesses in the United 
States are started by immigrants. Almost half of the Fortune 
500 companies were founded by immigrants to America, creating 
jobs for Americans. And over half of the patents filed in the 
United States are filled by immigrants.
    Mr. Jawetz, despite the quantifiable economic benefits of 
immigration, why does this President, but in fairness his 
predecessors, both Republican and Democrat, adopt an extreme 
hard line on immigration policy?
    Mr. Jawetz. It is a great question, I think, and it does 
get to something that the Congressman, Mr. Smith, raised as 
well.
    No one supports illegal immigration. Illegal immigration is 
a system of a dysfunctional system. It is also a reality. It is 
a reality in response to what the country's actual realistic 
needs are. There is a reason why immigrants are not just 
contributing for those who come through legal channels, but 
also--and this is very real and the literature is clear on 
this--also people who are undocumented who came in without 
status, those who fell out of status, they are still economic 
contributors to this country in myriad ways.
    So the question for me is, do we support legal immigration? 
Yes. Everyone supports legal immigration. So then we have to 
take a step back and say, well, how can we build a system that 
can be based upon legal immigration? How can we get out of the 
system we have now, which for decades has relied upon this 
dysfunctional, outside-of-the-law immigration system in which 
all of us rely upon the labor of unauthorized workers, 
undocumented workers, either directly or indirectly?
    So for me, if we want to think about how to restore respect 
for the rule of law in our immigration system, that means 
building a system that lives up to our values as both a nation 
of immigrants and a nation of laws and a recognition that we 
cannot be a nation of laws if we don't have laws that are 
consistent with our values and ideals as a nation of 
immigrants.
    Mr. Higgins. Claiming back my time.
    So in a political context, what we are doing then is 
conflating legal immigration with illegal immigration to create 
a negative perception of immigration generally. Is that a fair 
characterization?
    Mr. Jawetz. Yeah, I think over time basically--no one is 
proud of the system we have right now, basically. And so what 
we have is, what you have is, as the system becomes increasing 
dysfunctional over time, because Congress and administrations 
have been unable to actually fix the system and build a 
workable system.
    Mr. Higgins. And that is a failure of Congress----
    Mr. Jawetz. And the Administration.
    Mr. Higgins.----and the Administration?
    Mr. Jawetz. Yeah. I think all of us, yeah.
    Mr. Higgins. Moody's Analytics says that doubling the 
number of legal immigrants that we take in each year from 1 
million to 2 million would increase economic growth by 2 
percent each year over the next 10 years.
    Mr. Jawetz. Yeah. And I think Moody's also studied what 
happened in Arizona when Arizona adopted legislation that would 
try and drive immigrants, undocumented immigrants off the 
workforce. And what it ultimately did, basically, was decrease 
the job market, hurt American workers as well, because jobs 
just left the state. So, I mean, I think that is exactly right.
    And one thing, I think, it is a really striking thing, I 
mentioned this in my oral testimony, but Gallup has since 1965 
been polling the question of Americans whether the level of 
immigration to this country should decrease, increase, or stay 
the same. And we are now at, basically, nearly 55-year highs in 
the American public saying that immigration to this country 
should remain the same or increase.
    So we can keep banging our heads against the wall with our 
broken system and be really angry about the fact that we have 
10.5 million undocumented immigrants here, 7 million in our 
workforce, and you know that number is going to continue to 
fluctuate around that amount, or we can fix the system and 
bring people within the legal immigration system so that our 
system can work as it is designed, rather than through work-
arounds and us just turning a blind eye to what is going on.
    Mr. Higgins. And with that, I will yield back, Mr. 
Chairman.
    Chairman Yarmuth. I thank the gentleman.
    I now yield five minutes to the gentleman from Utah, Mr. 
Stewart.
    Mr. Stewart. Thank you, Mr. Chairman.
    And to all your witnesses, thank you.
    It is often said--always said--we have a crisis at the 
border. I think that is an enormous understatement, frankly. I 
don't think we have a crisis at the border; I think we have 
three crises.
    One of them is obviously humanitarian, something that every 
one of us in this room cares about. One of them is security. 
And the third one is political, a political crisis here in D.C. 
in our inability to fix this. And I think, frankly, the 
political crisis may be the more difficult of these to fix.
    And some of the rhetoric around this is, honestly, it is 
just cynical, much of it is dishonest, and some of it is just 
intellectually lazy. There are many of us who want to fix this. 
For example, from the very first day I decided to run some 
seven years or so ago, I have always wanted to fix DACA. I 
think if we had a DACA bill on the floor, we would have 350 
votes for it.
    And we ask ourselves, would we rather have a cynical and a 
political tool and do what is right for these families, for 
these children, and ultimately for the security of our nation, 
or would we rather have a tool that used and use it as a 
bludgeon against some of our political opposition.
    I am a father, I am a grandfather. I can't even begin to 
imagine the concern and the stress of these families and what 
they must feel and the difficulties of these individuals as 
they face this journey.
    I have been to the border. I have been to the region many 
times, and we see what is happening to the children and them 
being used. It is truly heartbreaking.
    As a member of the Appropriations Committee, I have voted 
numerous times to support the children and their parents 
whenever possible. I am pro-family, and I am also, as we have 
just said recently, I am pro-legal immigration.
    And there is one more realty, and I want to mention this 
just quickly, and that is human trafficking. It is where I 
would like to focus my attention. Out of the many elements of 
this crisis, I really do want to spend some time on this.
    We were recently told in an Intel briefing you can purchase 
a child to be used as a tool to cross a border for $80--$80 you 
can purchase a child. And some of these--and as young as a few 
months. Not a toddler, a few-month-old baby. And some of these 
children have been recycled across the border 40 and 50 times.
    And I just think it is our responsibility as a Member of 
Congress to really, truly do something to fund DHS and HHS, 
something that we all know here is going to reach a crisis in 
the next few days if we don't have adequate funding for that.
    Mayor, I would like to spend some time with you, if I 
could, and see your personal experience in the responsibilities 
you have in the city of Yuma.
    Have you seen, have your citizens seen elements of this 
trafficking of children or other, you know, sex trafficking or 
other human trafficking?
    Mr. Nicholls. Thank you, Congressman.
    We have seen some evidence of it through the shelter 
system, where people have had plans to go to their host family 
with tickets purchased, and then a truck pulls up and they get 
in the truck and they leave, which is not a usual thing you 
would do if you are trying to get to a host family. And that is 
evidence of trafficking.
    The struggle on trafficking is it is not something you can 
just walk into and understand that that is going on at that 
moment. It takes a lot of research, and ICE right now is 
overwhelmed in the number of cases that they are researching.
    But that does go on. And as far as the recycling of the 
children, there is quite a bit of work done at the Border 
Patrol station to try to identify whether the children are 
associated with the parents, units that they are with. 
Sometimes by the time they get to the shelter, that still 
hasn't been determined. So there is always that concern.
    As people leave the shelter, we are not sure really where 
their ultimate situation is when they get to wherever they are 
going. So very, very few migrants actually stay in the Yuma 
community. They come through and they move through.
    Mr. Stewart. So let me ask you, as a mayor who is 
responsible for law enforcement in your community, do you have 
the resources that are necessary to combat trafficking or do 
you need help from the federal government on that?
    Mr. Nicholls. We do not. We need help from ICE and the 
different federal agencies.
    Mr. Stewart. I mean that is just obvious, isn't it?
    Mr. Nicholls. Yes, very obvious.
    Mr. Stewart. This is beyond your capability. I hear that 
again and again and again in local communities, this is beyond 
the capabilities of our local law enforcement to deal with 
adequately.
    Mr. Nicholls. And it reaches outside of jurisdiction 
because that kind of crime goes across boundaries.
    Mr. Stewart. Yeah.
    To any other panelists, anything you would like to respond 
or add to the conversation regarding the tragedy of human 
trafficking.
    Mr. Jawetz. Sure. Thank you so much, Congressman.
    So I have a few things on that. I would say, one, it is 
important to keep in mind that the legislation that many people 
have been talking about for the last few years, really since 
2014, that people want to make changes to, the so-called asylum 
loopholes, are embedded in the Trafficking Victims Protection 
Reauthorization Act.
    The proposed changes that many of you have voted for over 
the last five years would change that law and make it so that 
children who come without a parent or without a guardian can be 
turned around immediately, even if they don't comprehend--I 
mean, this is literally in the bill--if they don't comprehend 
the consequences to them of accepting a return. They would 
allow kids who pass that threshold to remain in Border Patrol 
stations under law for up to a month.
    So that is what the legislative change is that we have been 
driving toward for all this time would look like.
    And the last thing I would say, real quickly, is I agree 
that we should be trying to protect children. That is 
critically important, and protecting children or victims of 
trafficking is important, but I also want to think about the 
child who died just a day or two ago in the Rio Grande whose 
picture became ubiquitous on social media just last night.
    This is a family that tried to come through the port of 
entry to request asylum and they were told the port was closed, 
and they looked at the river and the father said it didn't look 
that bad, and so they decided to try and cross just so they 
could avail themselves of the right, under our law, to apply 
for asylum.
    Mr. Stewart. Well--and I will conclude, our time is over--
but that your point is the asylum and the legislation around 
that has got to be reformed to dissuade people from taking that 
type of risk, so----
    Mr. Jawetz. That is not my suggestion, I would say.
    Mr. Stewart. Well, you and I may disagree on that, but we 
understand and agree that it is a real problem and that if we 
don't do something it is going to continue to be a problem.
    Mr. Jawetz. That I would agree with, yes.
    Chairman Yarmuth. The gentleman's time has expired.
    I now recognize the gentleman from North Carolina, Mr. 
Price, for five minutes.
    Mr. Price. Thank you, Mr. Chairman.
    And let me, too, thank all of our panelists for a very 
useful discussion.
    I represent the Research Triangle area of North Carolina, 
and we are an area that has welcomed immigrants and benefited 
from the presence of immigrants in all aspects of our 
workforce, whether we are talking agriculture or construction 
or hospitality or healthcare or high-tech industry.
    We have a large immigrant population, and we are attentive, 
therefore, to national policy and to the trends that national 
policy may encourage.
    What we see with the Trump Administration is an array of 
national policies that are hostile and alarming and have spread 
panic in the immigrant community and beyond: the Muslim ban, 
the revocation of temporary protective status, the virtual 
cutting off of the flow of refugees, the betrayal of the 
DREAMers, indiscriminate deportations, separating families at 
the border, and on and on and on. There are those explicit 
policies.
    Secondly, there is a widespread perception, justified or 
not, of bureaucratic slow-walking, not just in the refugees, 
that is a reality, but also just in the processing of visas and 
other bureaucratic procedures associated with immigration.
    And then there is the question of the optics, and that is 
what I want to get to, the message this sends, the conclusions 
that are drawn by people who may be thinking about, let's say, 
studying in this country or teaching in this country or 
undertaking entrepreneurial ventures in this country.
    That is really my question, and it is focused on higher 
education, since we are a center of higher education. We have 
many, many international students, undergraduate, graduate, 
postdocs. We have talented, trained people who hopefully would 
stay in this country and lend their talents to our economy. And 
we have many examples of the kind of entrepreneurship that we 
have heard described here.
    So that is my question, about the trends. What are the 
relevant policies when we think about the kind of student and 
postdoc and entrepreneurial talent we want to attract, what can 
you tell us about the trends in terms of students choosing the 
U.S.?
    I hear a great deal that we are losing students to Canada, 
Germany. I hear about incredibly difficult times just with 
visas and with just processing the student and faculty papers 
and so on.
    That is my question, what do the trends look like, and what 
are the relevant policies?
    Dr. Kerr. Thank you. I will start to respond to that.
    So you are absolutely right that the U.S. depends heavily 
on high-skilled immigrants, and a lot of these immigrants don't 
necessarily arrive with high-skilled kind of credentials, they 
arrive as students. And they arrive under a student visa, which 
is basically of a fairly unlimited supply, then they have to 
figure out what they can do after they graduate. And then there 
is a more limited supply of visas at that point.
    And then eventually, given that they are high-skilled, they 
will probably like to stay and continue working on a work visa. 
And there is yet another, more limited supply of visas 
available, the H-1B.
    And I think that is a very difficult situation that we are 
facing. The U.S. is facing also some stiff competition from 
Canada, Australia, U.K., other immigrant destinations that have 
great University systems. And I think it will be very helpful 
to think through kind of how does this process of actually 
attracting and retaining these high-skilled individuals who are 
going to pay taxes and contribute to innovation.
    Mr. Price. Do we actually have data on the trends in this 
regard?
    Dr. Kerr. On the trends. So what I have seen, and sort of 
you can see also some anecdotal evidence out there, is that 
there is definitely--the increase has stopped. We don't see 
this ever-increasing supply of high-skilled students entering 
the United States the same way as we have before. I think we 
need to wait a little bit longer to see kind of where the trend 
is turning.
    Mr. Nicholls. Congressman, what we have seen in Yuma is 
still a consistent desire to come into the United States from 
Mexico. I do an extensive amount of engagement in Mexico. We 
have formed a binational organization called 4FrontED, and one 
of the things we have done is sign an MOU with the three 
Arizona State Universities, our local community college. And at 
first it was just seven Mexican uiversities, it is now 17 
Mexican Universities that are interested in doing exchange 
programs and coordinating curricula and really working together 
on that.
    And in talking to the students and talking to the faculty, 
there is still very strong anecdotal evidence that the desire 
to come to the United States, the desire to work in the United 
States, even after obtaining a degree at a Mexican University, 
is still very much there. And our economy, as I tried to 
describe in my remarks, is dependent upon that, from our 
hospital, to our agricultural industry.
    And when I say agriculture industry, it is not just the 
skilled farm workers, it is the chemists and all the 
researchers, and those are frequently internationally sourced.
    Chairman Yarmuth. Thank you for your response.
    The gentleman's time has expired.
    I now recognize the gentleman from Texas, Mr. Flores, for 
five minutes.
    Mr. Flores. Thank you, Mr. Chairman.
    I also want to thank Representative Smith for submitting my 
letter from the Mayor of El Paso for the record. And I will 
just talk a little bit about what is in that letter.
    Since January of 2019, more than 75,000 migrants have been 
released into El Paso, climbing from 7,800 migrants in January 
to 18,804 in April.
    CBP facilities are at capacity and federal officers are 
spread way too thin to appropriately handle the processing 
claims. As a result, delayed processing and wait times on the 
northbound bridge of the point of entry in El Paso resulted in 
an estimated $483 million loss of imports for the month of 
April alone.
    Cross-border spending and trade also coming from the border 
is a boon for the city of El Paso and the region along our 
border. It is unfortunate that my colleagues on the other side 
of the aisle are unwilling to adequately fund ICE and CBP to 
meet the increased levels of migration we are experiencing, 
leaving open the prospect of dangerous individuals entering our 
country.
    Mayor Nicholls, I would like to begin my questioning with 
you, if that is all right. And thank you for being here today.
    Mr. Nicholls. Thank you.
    Mr. Flores. You are giving a firsthand perspective of the 
crisis and what it is like on the southern border. The 
statistics that we have seen today are undeniable.
    And your city is not alone. As I mentioned, El Paso has 
experienced the same increased levels of migration, seeing the 
substantial impacts reverberating through their local economy 
because of a lack of resources. While legal immigration is 
important to all of us and to our economy, underfunding the 
humanitarian crisis on our border will have the opposite 
effect.
    Yuma is home to more than 100,000 people, as you have 
stated, but it is reported that you have seen more than 24,000 
families cross into your city over the past year. The only 
shelter available is significantly overpopulated. CBP is 
understaffed and overworked, so when 1,300 migrants were 
released into Yuma over the course of the last few weeks you 
had no choice but to call a state of emergency.
    My questions are this. Do the numbers you talked about add 
up to a crisis in your opinion?
    Mr. Nicholls. Thank you very much, Congressman, for the 
question.
    They very much do. And just to kind of maybe put it in 
perspective, when you talk about 5,000 people that I mentioned 
in my comments, maybe not seem like a lot when you live in a 
large city. But if you translate that to a community of, say, 4 
million people, a large city, like the city of Phoenix, the 
proportionality of that is 200,000 people. That would be 
200,000 people coming through a community of 4 million. That is 
a substantial impact.
    And so there is really--it's no--no clear way to describe 
it, except for exactly that. It is unsustainable to continue to 
have that kind of flow through our community.
    Mr. Flores. So the analogous impact on Phoenix, as you 
stated, would be essentially two times the population of Yuma?
    Mr. Nicholls. Yes.
    Mr. Flores. Is that right?
    Mr. Nicholls. Yes, that is correct.
    Mr. Flores. Can you expand on some of the positive impacts 
that come, that your city usually experiences from legal 
immigration and the benefits of cross-border spending for small 
businesses and the local economy?
    Mr. Nicholls. Our economy is definitely based upon that 
international relationship.
    And just to give you maybe a quick anecdotal story. I met a 
gentleman 30 years ago who emigrated to this country at 18. He 
started a small business, raised a family, bought a home, sent 
his kids to college, really the true American Dream. He was 
engaged, still is, in that $3.5 billion agricultural side of 
our economy, and he has become a real hero to me in a lot of 
ways, helped me start my own engineering firm, and he is my 
father-in-law.
    So this is really a very personal, a very real, everyday 
thing for us. And this is not an unusual story. This is--60 
percent of our community is Hispanic. So this story occurs all 
the time. And so it is very, very well-connected. And we spend 
a lot of time promoting the region, not just the city of Yuma, 
but the region, because we understand that the economies 
throughout the region benefit everybody.
    Mr. Flores. We see the same thing in Texas also. And for 
several years Congress has attempted but failed to address our 
broken immigration system. This starts with securing the 
border. Securing the border requires an all-the-above approach, 
which includes barriers, technology, smart infrastructure, and 
also people.
    What immediate resources are needed from a federal 
perspective, from the federal government, so that we can start 
getting a handle on this crisis, the security part of the 
crisis?
    Mr. Nicholls. From the security part of the crisis, it is 
all based upon having the resources complementing with the law. 
So we have talked about a lot of the law changes, but really 
until we get a full complement of agents to enforce the law, 
the law isn't enforceable, which is a lot of the problems right 
now in the process.
    Also, access to judicial process. So instead of waiting six 
months to two to three years, being able to get asylum claims 
processed. And when people have an asylum claim they can get 
that protection right away instead of waiting, would also help 
with this whole process.
    I think there is the ability to not--or the condition to 
not release in communities smaller than a million people would 
also help that pressure that is created and would move the 
federal burden from just a local community to the greater 
country.
    Chairman Yarmuth. The gentleman's time has expired. Sorry.
    I now recognize another gentleman from Texas, Mr. Doggett, 
for five minutes.
    Mr. Doggett. Thank you, Mr. Chairman.
    And thanks to all of our witnesses. We have a markup of 
legislation concerning Medicare going on at the same time next 
building over, but I have had a chance to review your written 
testimony and appreciate it and your appearance here today.
    It seems to me that the Trump Administration's immigration 
philosophy is sick in both heart and mind. His campaign of 
stoking fear and prejudice ignores reality, a reality you have 
described this morning, and it lashes out against the most 
vulnerable.
    He relies upon authoritarian tactics to twist our laws and 
to inflict cruelty. He has lashed out by stripping protections 
for DREAMers, undermining the legal status of high-tech visa 
and green card holders, and inflicting cruelty on asylum-
seeking children on our border. We are all the worse off for 
these policies.
    Let's talk about this failure of the Congress to address 
immigration, because it is correct that there has been a 
complete failure of the Congress to address immigration, but it 
didn't begin this year. Indeed tomorrow, to be exact to the 
day, June 27, 2013, six years ago, the United States Senate 
passed by an overwhelming bipartisan majority comprehensive 
immigration reform.
    Only but for the obstruction of Republicans has that 
legislation been blocked. You will recall that Speaker Boehner 
first, after making many promises to the contrary, refused to 
let the House vote on that comprehensive immigration reform. 
And after him, Speaker Ryan did exactly the same thing.
    Our immigration system could and should have been repaired 
long ago, but Republicans have stood in the way to prevent any 
comprehensive immigration reform.
    Unfortunately, we now have a President who likes railing 
about immigration far more than doing anything about it, who 
relies on an imagined crisis that he created himself, and 
people can see through that, no matter the cost of human life, 
as we see at the border today.
    This is a President who, when presented with a bipartisan 
consensus bill option sitting there with him in the White House 
exclaimed that he wanted more immigrants from Norway and 
referred to Central African and Central American countries with 
an expletive that I will not repeat this morning, but is well 
known and reflects his heart, which goes to the very core of 
bigotry around this policy.
    So what we are tasked with today is laying out a framework 
of what a President with the slightest sense of human decency 
and humanity might be able to do the year after next. And your 
testimony is important in doing that.
    Meanwhile, this year, the House has already recognized that 
our DREAMers, who have cleared a criminal background check, are 
contributing in our country, they should not have to rely only 
on court decisions, which the Trump Administration is trying to 
undermine in order to be assured for them and for their 
employers and their schools that they are able to continue 
here.
    Unfortunately, the situation again, when we talk about the 
failure of Congress, yes, there is a failure of Congress, there 
is a failure of now the Majority Leader in the Senate doing 
exactly the same thing that House Speakers under Republican 
control did in the past, refusing to even let the Senate 
consider protection for our DREAMers, the easiest and most 
direct piece of immigration legislation that we might approve.
    And then there is the claim of the President recently that 
his solution to the immigration problems that we face is to 
deport a million people from this country.
    Fortunately, the President, because we have now an acting 
Homeland Security Secretary, a vacancy for the head of Customs 
and Border Protection, an acting head for Citizenship and 
Immigration Services, has given us an immigration policy with 
many tweaks, but with no leadership, with a lack of 
organization, and with general incompetence. And so many of our 
immigrants and the businesses and industries that depend upon 
them are protected in some cases by our courts and in other 
cases by just the incompetence of this Administration in 
carrying out its policies.
    All objective economists who have looked at this recognize 
that giving our DREAMers legal status that stop tearing 
families apart and let those who have been here legally in our 
country contribute to our economy will aid us greatly.
    The irony in Texas is so great. We face worker shortages 
right now, particularly in construction, in agriculture, in the 
service industries. Those are the industries that will be hurt 
the most if this heartless policy of deporting and separating 
families is allowed to develop.
    I have confidence in the lack of leadership of this 
Administration, in its total incompetence, that that will not 
occur. But I appreciate your testimony about what a brighter 
day in America might hold, not only for immigrants, but for all 
of our country, and that the Statue of Liberty was calling out 
not just to Norway, but to all the world. And I yield back.
    Chairman Yarmuth. The gentleman's time has expired.
    And now I yield five minutes to another gentleman from 
Texas, Mr. Crenshaw.
    Mr. Crenshaw. Thank you, Mr. Chairman. Thank you for 
holding this hearing. I appreciate that we are talking about 
the immigration issue. And I wish we had been able to talk 
about the supplemental bill in this Committee as well, and in 
the other Committee that I am a part of, which is Homeland 
Security. But unfortunately, we hardly ever talk about 
immigration, so I appreciate that we are doing it here.
    But we have to be clear about something when we are talking 
about the costs and benefits of immigration, and it is this: we 
cannot conflate illegal and legal immigration. That is often 
the case. Every time we point out the issues with illegal 
immigration and the abuse of our asylum laws, well, the 
response is always, Well, immigrants are good. Yes, done. 
Absolutely. Immigrants are good. We like immigrants.
    And if we want to have a really reasonable conversation 
about increasing quotas for legal immigration and more 
streamlined work visas, all of that would be great. That is not 
something we are opposed to. Legal immigration is good. Period.
    Illegal immigration is bad. Period. We should be seeking to 
diminish one almost in its entirety as much as possible, and we 
should be seeking to streamline the other, meaning the legal 
immigration. Illegal immigration is infringement on our 
sovereignty. It is an abuse of our rule of law, and you have to 
be deliberately naive right now to believe that what is going 
on at the border is just typical rule of law, that 144,000 
people apprehended last month is not an abuse of our asylum 
system. Of course it is. Of course it is. The word has gotten 
out how easy it is, as long as you bring a child with you, to 
cross our border. And then you will be caught and released 
inside the homeland.
    This is not fair to our citizens and their sense of 
sovereignty. This is not fair to our rule of law. This is not 
fair to the basic notions of personal property rights that our 
country was founded on. This is not fair to legal immigrants 
waiting in line to do it the right way. This is not fair to 
these children who were trafficked. This is not fair to them. 
This is not moral. This is not sustainable. To use the words of 
the Mayor, that is a word we have to use more often, 
sustainability. We cannot sustain blatant abuse of our rule of 
law.
    Let's talk about the costs, too. Yesterday, when we passed 
a supplemental bill, over $4 billion, that is a direct cost of 
illegal immigration. Direct cost, right there. Over $4 billion. 
In Texas, we have to deploy 1,000 National Guardsmen down to 
the border. That is not free. It costs something.
    Communities are stretching their resources to absorb 
illegal immigrants. The Mayor is talking about this. That has a 
cost. We can slice and dice the numbers however we want, but 
the fact is that illegal immigration disproportionally impacts 
communities that are already struggling. It just does.
    Just last week, we had a hearing about stretching scarce 
federal resources to impoverished communities. Talking about 
Americans. Another good hearing to have. But last week also, 
Ways and Means, Democrats voted for an amendment that will 
allow illegal immigrants to claim an additional $6,000 in 
refundable tax credits. I don't understand this. We have 
American citizens, we have legal refugees, we have green card 
holders in poverty, but we are extending generous tax benefits 
to illegal immigrants.
    In Texas, we spend over $50 billion on education. We also 
have 158,000 illegal immigrant children in Texas. This costs 
$3.5 billion. There are real costs here. And to put this into 
perspective, a local school district which already has to 
finance the education of their own children, now has to raise 
taxes on their own community to pay for the education of people 
who came here illegally. I don't understand how this is 
possibly fair or, more importantly, sustainable.
    Mr. Mayor, can you tell us the impact of illegal 
immigration on being able to provide an education for local 
children in your city?
    Mr. Nicholls. Well, I don't really have the statistics with 
me on the immigration----
    Mr. Crenshaw. Generalities.
    Mr. Nicholls. Right. But there is definitely a big burden 
when it comes to young families that come across, and that is 
what we are seeing through the Yuma area, is young families. 
Most of these families do move on to their host communities, 
and so they don't stay. But being close to the border, it is 
one of those things that we currently have a growing 
educational system, which is important, but the impact of 
illegal immigration is a little bit tougher, because most 
migrants don't stay in Yuma.
    Mr. Crenshaw. Okay.
    Mr. Nicholls. They do move on to the interior.
    Mr. Crenshaw. Go on through. What about emergency room use? 
I will tell you what, we have low-income hospital in Houston, 
LBJ Hospital. I have toured it. It is for low-income Americans 
who don't have insurance. A quarter of their costs go to 
illegal immigrants. Do you see anything similar in Yuma?
    Mr. Nicholls. We do. In our hospitals, just this year 
alone, has saw 1,300 patients from the illegal immigrant 
process, whether it is through the Border Patrol or through 
ICE. And that has netted over a half a million dollar cost to 
the hospital, because those costs aren't 100 percent 
recoverable. And being a community-type hospital, they have to 
pass that on somewhere. And so it gets passed on, and we do 
have a higher cost of healthcare in Yuma, and that is one of 
the elements that causes that.
    Chairman Yarmuth. The gentleman's time has expired.
    I now yield five minutes to the gentlelady from California, 
Ms. Lee.
    Ms. Lee. Thank you very much. Let me thank yourself and the 
Ranking Member for putting together this very important 
hearing. First of all, let me just say, that I was born and 
raised in an immigrant community, El Paso, Texas, and I know 
from personal experiences the contribution that immigrants make 
to our diverse and economically prosperous and frankly making 
America a better place. Our communities--our immigrant 
communities, because every person, quite frankly, in this 
nation is or was an immigrant.
    Now, as a mother, I have been horrified and outraged by the 
actions taken by the Trump Administration to deliberately 
separate families in our country, to cage families at the 
border, and to really look--to really see this really overall 
inhumane immigration policy and policies. Like any immigrant 
mother, I love my children, and cannot imagine having been 
separated from them when they were children.
    Now, when I was down at the border--and I go to El Paso 
periodically--and I was in Brownsville and McAllen last year, 
and I saw the prison-like conditions that these children were 
kept in. There were kids sleeping on concrete floors, with only 
thin, emergency blankets--I think they are called mylar 
blankets--to keep them warm. No family should have to endure 
this.
    In my own district, the 13th District of California, 
Northern California, Oakland, Berkeley, California, we have 
heart-wrenching separation stories for the last two years. So I 
hope that this hearing is yet another wake-up call to all of 
us, because we owe it to our families, to the Constitution in 
our country, to fix our broken immigration system without 
delay. Now, I guess let me direct this question to anyone who 
would be able to answer it. Maybe Mr. Kerr?
    Mr. Nicholls. Nicholls.
    Ms. Lee. Yeah. You know, President Trump renewed his pledge 
to deport millions of--he called--his language is illegal 
aliens. They are undocumented men, women, and children, in my 
opinion. But he decided that he was going to do this. And these 
policies, quite frankly, are inhumane and threaten the 
fundamental rights of millions. Now, in terms of the economics, 
though, something the President likes to say that he 
understands, what do you--how do you see this move toward 
deporting millions of undocumented immigrants, and can you see 
what contributions they could make to our economy or not?
    Mr. Nicholls. Thank you, Congresswoman, for the question. 
There is definitely--as we talked about immigration, there is 
definitely a lot of positives that people can bring. However, 
being in an undocumented-type status makes that very difficult 
because of a lot of the different situations that you end up 
in. For instance, the 50,000 people that we--that are used in 
the agricultural industry for the harvesting, all the way 
through the research and development, a very, very high 
percentage are all legal, working individuals. They have either 
their American residence, citizens, or have a guest worker 
program that they are in through.
    Ms. Lee. Well, let me ask Mr. Jawetz a question. You know, 
coming from California, it is an agricultural state. I was with 
Congressman TJ Cox in the Central Valley and meeting with 
farmers and workers. And it is my understanding that they are 
very limited now, agricultural workers, and the impact on our 
economy, of course, will be sooner or later the increased cost 
in produce and in food. And the argument always is that, you 
know, I know this Administration tries to pit black workers 
against immigrant workers, that, you know, the availability of 
workers exists in the African American community. Can you talk 
about that a little bit in terms of ag industry and ag workers 
and how that dichotomy and that pitting against immigrant 
workers and black workers plays out, in your perspective, in 
terms of the jobs?
    Mr. Jawetz. Sure. So I will say a few things on that, and 
one is, different crops in different parts of the country rely 
in different ways on the visa programs that may be available, 
like the H-2A programs for agricultural workers. And so it may 
be the case from that in Yuma, they have greater success with 
H-2A and with cross-border crossers for work. In a lot of other 
places--California is a great example--there is a very, very 
heavy reliance on undocumented workers, many of whom have been 
in the workforce for a decade, two decades, rather. They are 
skilled workers who have sort of managerial responsibilities.
    And if you look actually at what the California Farm Bureau 
and the American Farm--I mean, all these folks basically when 
they look at the need for immigrant workers in their 
businesses, you know, that is really the reason why over the 
years, Congress--one of the major reasons--even when 
Republicans controlled the House, they couldn't put a mandatory 
nationwide E-Verify bill on the floor because growers came out 
and said very, very clearly, you are going to kill our 
industry. And if you are going to kill our industry, the 
consequences are going to be greater food imports from Mexico 
and elsewhere. It is going to be losing jobs in trucking, in 
grocery lines and packing, that are often held by American 
workers. And so, you know, it would be greatly disruptive to 
the entire food economy.
    Ms. Lee. But in the availability of the workforce in 
America, you know, oftentimes, again, this Administration says 
that they can't, you know, that immigrant workers are taking 
away jobs from other workers.
    Mr. Jawetz. We had a natural experiment with that in 
Alabama and Georgia when they passed legislation to try and 
drive immigrants out of their states, essentially, and what you 
found was growers saying repeatedly, farmers, I cannot find 
workers when I go and try and recruit workers to come work for 
me. Now, I am getting people who, you know, very, very few are 
actually taking these jobs, and those who do can last a day, 
maybe, in the fields.
    Now, we need to work on improving wages. We need to work on 
improving conditions. That is the reason why the United Farm 
Workers--and they are a part of any real negotiation over the 
years, for how we can fix our immigration system and provide a 
steady and humane and responsible flow for agricultural workers 
who are in the fields doing this work. But the response can't 
just be to plug our ears and pretend that there aren't 
undocumented workers who are doing this work.
    And one thing really quickly is to finish on something 
that----
    Chairman Yarmuth. The gentleman needs to conclude.
    Mr. Jawetz. Oh, I am sorry. On Yuma, I will just say, you 
know, in terms of data that came up earlier, you know, there 
are about 2,500 people in the county, in Yuma County, who would 
be eligible for relief under H.R. 6. The number of kids and 
TPS, DED holders who would benefit from that bill, they live 
with about the same number, about 2,500 U.S. citizens, or 
households. They pay millions of dollars in federal, state, and 
local taxes in the county. They hold tens of millions of 
dollars in spending power annually. So even in the county where 
there are great positive contributions of legal immigrants the 
way you described, there is a thriving and significant 
population of undocumented immigrants who are contributing to 
that community, and I am sure that you know them, and I am sure 
the folks in your city know them as well.
    Chairman Yarmuth. The gentlelady's time has expired.
    I now recognize the gentleman from Oklahoma, Mr. Hern, for 
five minutes.
    Mr. Hern. Mr. Chairman, thank you so much. I am glad we are 
having this conversation today. It is interesting, as my 
colleague from Texas said, next to me here, that we have 
devolved this whole conversation into an illegal conversation. 
There is not a person in this room who doesn't think we need 
more legal immigration. In fact, we have a lot of legal 
immigration every year, about 757,000 people that were 
naturalized last year; 716,000 the year before that. So that 
process is working for those who want to do it the right way. 
It has averaged that for decades now, 600,000-plus. Is it 
enough? Probably not for the robust economy that we have. We 
could fill jobs a lot if we could get more folks here.
    We heard the great conversation here from our restaurateur 
in the restaurant business for a long time. It is tough work. I 
applaud you.
    You know, what we are looking at here, though, is an 
immigration system, and I think we all agree, every one of us 
agree, if we could take the cameras out, take all the recording 
out, we probably could find a solution in about 30 minutes. We 
could all go and we could vote quietly, we would have an 
immigration policy.
    As a person that has only been in Congress about seven 
months, it is amazing to me that we can't fix something as 
simple as the problem we have right now. I have seen it for 
years. It has been very frustrating.
    We should--you know, we have talked about the various level 
of folks that are allowed to come in this country. People are 
still wanting to come to this country. They still see us as the 
greatest nation in the world, the freest. And yet, we argue 
that it is not free and that it is a bad place to live. And, 
you know, folks that have come here, disagree with us, disagree 
with the politicians. You must be, if you are, you know, sir, 
if you are on the immigration policy team and you have been 
doing this for a long time or friends across the aisle, you 
have got to be extraordinarily saddened by the fact that the 
previous Administration, when they had, as part of their 
campaign to fix immigration issue, had the first two years of 
their Administration, a super majority in the Senate, 
filibuster-proof, you had the House, that no immigration policy 
was taken up.
    So while we are sitting here degrading and demeaning the 
current Administration, I think there is plenty of political 
opportunities have been there for every administration.
    You know, we also talk about what has happened in the 
illegal immigration. Since we are going to go there, we have 
had over--year to date, we will have about 750,000 
apprehensions in this country which is about the size of our 
congressional districts. So if you want to put it in 
perspective, the impact of that, in a half a year, we are going 
to apprehend a congressional district. In a whole year period, 
two congressional districts of folks coming here illegally, 
seeking to come to a country that is the greatest in the world. 
You know, based on the National Academies of Science, 
Engineering, and Medicine data, illegal border crossers create 
an average fiscal burden of approximately $75,000 during their 
lifetime, and excluding any costs for the U.S.-born children. 
In order to pay for the President's previous $5 billion border 
security request, we would only have to prevent about 60,000 
crossings, less than 3 percent of expected legal crossers in 
the next decade, to warrant that cost.
    I have been there. Three weeks ago, I was in McAllen, 
probably the worst of the worst places on the border right now. 
It is a travesty what is going on. We need to fund the 
opportunity for these children. You know, we could go into, and 
I could digress and talk about what my colleagues have talked 
about, of why we have so many children here, unaccompanied 
children, people that are coming in the way they are coming in. 
It's terrible. There is no question about it. There is not a 
soul in this room--I am a father of three, a grandfather of 
one. If anybody believes that it is okay--but the reality is, 
we do have a rule of law, so--and so and we have, again, 
750,000 people that are using that rule of law appropriately, 
just as the gentleman did from Minnesota to come here and seek 
out the American Dream. That is all we are asking, let's just 
do it the right way.
    You know, as we talk about Mayor Nicholls as a person who, 
again, is in charge--for--of the law enforcement of a city, and 
you are responsible for the safety and health of a lot of 
citizens in Yuma--you live this every day--can you tell us what 
our current conflicting message of immigration policy, how it 
impacts cities on the border?
    Mr. Nicholls. Thank you, Congressman. The conflicting 
message is really one like--there is a lot of different angles, 
I guess, I could take with that question. But one that really 
comes to mind is, we are dealing with a very large population 
coming through, and it is definitely a national issue, but it 
is not being funded nationally. It is being--it is on the backs 
of our communities, backs of our nonprofits, in order to deal 
with the release of these people into the communities, and 
helping them to get to their ultimate destination. So there is 
a dichotomy there.
    And then also we have given the job to our DHS to enforce 
the law, but they don't have enough people, they don't have 
enough resources, they don't have enough facilities to 
adequately do that. And so at the same time, we bring forth a 
criticism of how the process works, but they are handcuffed on 
how they----
    Mr. Hern. So my time is short. Mr. Chairman, can I just ask 
a follow-up question? My colleague just went over two minutes. 
I promise it won't be two minutes.
    Chairman Yarmuth. Go ahead.
    Mr. Hern. Just as a follow-up to that, what I have seen, 
interesting enough, is that we have had, you know, a lot of 
people go ask CBP agents, mayors, along the border, and you 
give them these facts, the naysayers, but they must not believe 
you, because they are still saying it's the President wanting 
this, when the requests are actually coming from the mayors and 
the CBP agents up and down the border. I mean, how do you--that 
has got to be immensely frustrating.
    Mr. Nicholls. It is. You know, I stay in my lane as the 
mayor and not as, you know, telling Congress exactly what needs 
to get done, but there is--the fate of our community in this 
area is at the hands of those that do set those laws, and that 
is Congress and the Administration.
    Mr. Hern. Thank you, Mr. Chairman.
    Chairman Yarmuth. The gentleman's time has expired.
    I now recognize the gentleman from New York, Mr. Morelle, 
for five minutes.
    Mr. Morelle. Thank you, Mr. Chairman, for bringing this 
important conversation to the forefront today. I applaud the 
folks in this hearing on facts rather than fear. For far too 
long, our national conversation on immigration has stoked panic 
that immigration is stealing jobs from hardworking Americans 
and making our communities unsafe.
    The reality, backed up by data, is very different. 
Immigrants, like my great grandparents, are job creators, not 
takers. First-generation immigrants start one-quarter of all 
new businesses in the United States, and are twice as likely as 
native-born Americans to become entrepreneurs.
    Moreover, the evidence shows that immigrations and 
immigrants do not reduce overall employment levels or working 
hours, and do not drive down the wages of working Americans. In 
my own district, new immigrant communities have revitalized 
Rochester when population decline threatened our livelihoods. 
Thanks to those new arrivals, our city's population is stable, 
and our economy has the opportunity for growth and innovation.
    Today, almost 10 percent of the Rochester population was 
born outside the United States. They are our friends and 
neighbors, our coworkers, our customers, and our family 
members. I appreciate the opportunity to discuss how 
immigration policy can best nurture the economic power of 
hardworking families that are eager to bring their expertise 
and drive to America to build a better future for our nation.
    Again, Mr. Chairman, I thank you for this opportunity.
    I would like to ask Dr. Kerr, President Trump has claimed 
that our country is full. How can that be accurate when the 
Census Bureau show that 44 percent of American counties lost 
population last year?
    Dr. Kerr. Thank you for that question. I think it is 
interesting this is happening elsewhere as well. We have 
increasing concentration of population into specific growth 
centers, and that can be problematic both for the places where 
population is rapidly increasing, the cost of living is 
increasing, the congestion is increasing, as well as to the 
areas that are actually losing population. So I think it is 
certainly not the case that the country is full.
    In fact, other places use immigration policy to 
specifically try to attract people to declining regions. There 
are examples in other countries where that is one part of the 
immigration policy, for example, setting up firms in declining 
regions, or just placing individuals into these declining 
regions to try to alleviate the loss of population.
    Mr. Morelle. Yeah, I would like to follow up. Economics is 
obviously your expertise. I am just curious. In those regions, 
in particular, where there was a reduction in population, 
population levels actually declining, can you talk about the 
economic consequences of that?
    Dr. Kerr. Yes. So that can be very problematic. If the 
economic activity of the population is declining, that means 
that it is harder to maintain services, like good public 
schools. It is harder to maintain many programs. It is harder 
to provide economic opportunities for the young individuals 
residing there, and that can lead to this vicious cycle where 
the areas become less and less attractive, and the young 
individuals will leave because there is nothing much for them 
to do. And those kinds of situations can be very hard to 
correct.
    Mr. Morelle. If I might, in the last couple of minutes, 
there has been a lot of conversation in my region, in 
particular, Rochester, New York, has a long history of 
manufacturing, and as we are transitioning from a manufacture 
and industrial base, to a knowledge-based economy, one of the 
things we continue to pursue is advanced manufacturing. And 
much of that involves defense industry and other important 
manufacturing that is critical to the United States. And there 
has been a lot of concern expressed about the supply chain, and 
the lack of skilled workers--in some cases, unskilled workers--
to take jobs in that supply chain.
    And there is a lot of talk about how some immigration 
involves highly skilled and highly educated workers, but what 
about immigrants that come here without an advanced STEM 
degree, or even a college education, can they participate in 
that supply chain in our efforts to promote advanced 
manufacturing? And could you talk about that and how important 
that might be to us over the next decade or two?
    Dr. Kerr. Yes. So I think everyone seems to like highly 
skilled immigrants, but it is a false notion that less skilled 
immigrants, or immigrants without a college degree, don't 
provide something for the economy. In fact, if you look at the 
entrepreneurs--immigrants entrepreneurs in the U.S., it is 
about half of the entrepreneurs who have a college degree, and 
the other half don't. It is the same actually for American 
entrepreneurs as well. So they--both type of entrepreneurs, 
skilled and not, create a lot of jobs. In fact, their firms are 
often more similar than different on any of these metrics that 
we have studied. And also non-college-educated workers are very 
important, as you mentioned, for many local economies, for 
American businesses in different sectors. They are an economic 
powerhouse, as well as the skilled immigrants as well.
    Mr. Morelle. Thank you. Again, Mr. Chair, thanks so much 
for this important hearing. I yield back.
    Chairman Yarmuth. Thank you. The gentleman's time has 
expired.
    I now recognize the gentleman from South Carolina, Mr. 
Timmons, for five minutes.
    Mr. Timmons. Thank you, Mr. Chairman. I appreciate you 
holding this hearing on immigration. It is critically important 
at this juncture in our country's history. We have a major 
problem, and I wish that we were talking more about how to fix 
that problem, than about building a more dynamic economy, the 
benefits of immigration. I don't think many people would say 
that we are anti-immigrant. I couldn't be more pro-immigrant. I 
just--I have a very strong emphasis on the rule of law. I think 
that laws matter. We have to enforce our laws. That is why 
people want to come here. Our society is one of the freest and 
safest places in the world, and we have people traveling 
thousands of miles, risking their lives and their families' 
lives, and it is just a tragic situation that we are in.
    I went with Mr. Hern to McAllen, Texas. We had a bipartisan 
trip that was eye-opening. Honestly, I have been here for six, 
seven months, and we were arguing here in Congress whether 
there was a humanitarian crisis at the border. And I trusted 
the Administration. I trust the President. And I trusted the 
Secretary of Homeland Security. But it didn't seem that that 
was unanimous. A lot of people just didn't believe them. So we 
have made progress here in Washington in that, I don't think 
anybody thinks there is not a crisis at our southern border.
    Having been there, it was probably the only time in my life 
that I felt shame as an American. There was the facility I was 
at in McAllen. It is designed for 3,000 people. There were over 
9,000 people. They had detention cells where it was designed 
for probably five people, they had 40. And I am not faulting 
the Administration, I am not faulting Homeland Security, I am 
not faulting CBP or Border Patrol. We have failed as a Congress 
to fix the problem. And we are currently--now we are fighting 
over what to do about the humanitarian crisis at the border. 
And the answer is not just throw money at it. That is part of 
the answer. It is a critical part of the answer. We need to 
send more resources to the southern border. But we also have to 
create a system that does not facilitate what is going on right 
now.
    Our laws are broken. I stood under a bridge right about a 
mile away from the Rio Grande River, and about 20 immigrants 
illegally crossed the border. They literally waded across the 
river, and they immediately, very calmly, in what would be 
described as through relief, turned themselves in to Border 
Patrol. And they were then taken to processing, and weeks 
later, they are going to be in an American city somewhere 
pursuing the American Dream. They have a court date, they got 
to go back, and it will probably be four or five years, but the 
vast majority do not show up.
    So we can't just throw money at it. We have to throw money 
at it and fix the problem, and that is to create an immigration 
system that encourages people to come here to pursue the 
American Dream, but do so in a way that abides by our laws. 
Come through our ports of entry.
    I guess my first question is to Mr. Jawetz. So what can we 
do to change what is going on? What would you propose that we 
do to fix the onslaught of immigrants coming across the 
southern border, not going through our ports of entry, crossing 
our border illegally, claiming asylum, and really just--it is a 
bad situation--so what is the proposal from the ACLU?
    Mr. Jawetz. I used to be at the ACLU. Now I am at the 
Center for American Progress.
    Mr. Timmons. There we go, there we go.
    Mr. Jawetz. But between that, I was on the Hill. So thanks 
very much for the question. A couple of things I want to flag 
first before I respond specifically. The first being the data 
on appearances in immigration court are being badly 
misconstrued. The vast, vast majority of people are appearing 
at their hearings on a regular basis. If you look solely at the 
data on closed cases, it is true that a large percentage of the 
closed cases are cases where someone didn't show up, but that 
is only because the cases don't close in just a matter of 
months, right? And so if you look at actually who is appearing 
as the process is going on, like 90 percent of folks are 
appearing, and if they have counsel, it is even higher than 
that.
    Mr. Timmons. How many undocumented immigrants, what is the 
number that you are using in the United States, currently? How 
many undocumented----
    Mr. Jawetz. There are about 10\1/2\ million people.
    Mr. Timmons. Okay. So enough people aren't showing up that 
we have a very large number?
    Mr. Jawetz. Oh, sorry. If you are speaking specifically 
about the southern border situation right now, that is the data 
I am referring to there. The 10\1/2\ million people we are 
talking about have been in the country now, on average, for 
about 15 years, right? That is the result of a system in 
which--you know, we spoke earlier about the conflicting 
message. I thought that was a really great framing for it, the 
conflicting message. When I was on the Hill, Richard Land from 
the Southern Baptist Convention, used to talk about how there 
are two signs on the southwest border. One says ``help 
wanted,'' one says ``no trespassing.'' That is the conflicting 
message for 20, 30 years we have been sending to the world, 
right? We as a country, as an economy, rely upon immigrants for 
their labor, for their contributions, as consumers. They are an 
integral part of our current and our future economic stability. 
But we don't actually have pathways to facilitate that. So when 
we yell about legal versus illegal and try and make that a 
really significant thing, we have to stop and say, Well, why is 
the law what the law is right now? If the law is unenforceable 
and we count upon it not being enforced, in order to realize 
the exact economic gains that we are all pointing--that you all 
are pointing to in this current Administration, you know, if 
that is what we are counting upon, let's try and harness the 
benefits of immigration within the legal system.
    Mr. Timmons. So you would agree that we need to create a 
legal system that actually facilitates immigration and then 
enforce those rules?
    Mr. Jawetz. I would 1,000 percent agree with that 
statement, and I will tell you, I would love it if it was true, 
frankly, that as I have heard repeatedly today, that every 
member on the other side of the aisle, on the Republican side 
of the aisle, supports not only legal immigration but 
increasing legal immigration levels. Because I will tell you 
that when I was in Congress, the most powerful voices who were 
lobbying on your side and on your issues were NumbersUSA and 
the Center for Immigration Studies, who are--setting aside they 
are designated hate groups,--their mission is to decrease legal 
immigration levels into the country. And Stephen Miller and 
President Trump, who listens to them, their goal is not what 
you are expressing. Their goal is not support for increased 
immigration. Their goal is to drive down significantly legal 
immigration to, like, 300,000 people a year, maybe, and to 
massively deport everyone who already is here, notwithstanding 
the economic disaster that would cause.
    Mr. Timmons. I don't know if I agree with--thank you, Mr. 
Chairman. I yield back.
    Chairman Yarmuth. The gentleman's time has expired.
    I now yield five minutes to the gentlelady from Washington, 
Ms. Jayapal.
    Ms. Jayapal. Thank you so much, Mr. Chairman, for holding 
this hearing. And I just want to pick up where my colleague 
across the aisle left off. I would 150 percent agree--or you 
said 1,000--I would agree 1,000 percent as well, with the 
statement that we all are trying to create a legal system that 
allows us to bring in the immigrants that we need, that allows 
us to meet the values and the demands of our economy. And it is 
not that we don't know how to fix that, and, in fact, in 2013, 
Mr. Chairman, you were a critical part of a very small, 
bipartisan group of House Members, that worked on an 
immigration proposal. The Senate in 2013--it is kind of--it is 
hard to believe this, but 68 bipartisan votes for a 
comprehensive immigration proposal that would have fixed much 
of what we are dealing with. And I think that the--what we have 
to understand is, you presented it much more diplomatically, 
Mr. Jawetz, than I did--maybe all those years on the Hill 
really helped--but I find it hypocritical, as a nation, but 
from a political perspective, because I actually think you are 
right, the statistics of Americans across this country, 
Republican and Democratic and independent, across this country, 
who know that immigration is a good thing for this country, 
that want to see increased levels because they understand the 
economic benefits of immigrants to this country, but the 
political hypocrisy of a nation that continues to rely on those 
benefits and yet has not fixed the system. And so I wanted to 
go to that system question, because one of my colleagues on the 
other side said, why do you keep conflating legal immigration 
and illegal immigration? It is because the system is broken. So 
tell us, when was the last time, last year, when we did any 
kind of comprehensive reform to our nation's immigration laws 
to update them to the needs of our economy?
    Mr. Jawetz. So the last time we reshaped our legal 
immigration system was in 1990.
    Ms. Jayapal. 1990?
    Mr. Jawetz. And since that time, of course, in 1996, 
Congress, notwithstanding the fact that the system itself still 
had deficiencies, layered on top of that, a number of really 
serious and heavy enforcement provisions that only further 
basically brought the immigration system out of step with the 
realities of the country.
    Ms. Jayapal. We started to criminalize immigration and 
migration in 1996, but 1990 was the last time----
    Mr. Jawetz. Yes.
    Ms. Jayapal.----that we have actually had any kind of a 
positive contribution in terms of reforming our immigration 
laws. And when people say, people should get in line, is there 
a line for people to get into?
    Mr. Jawetz. Yeah, there is certainly not one line. There 
are lots of different potential lines. Some of those lines, if 
you look, for instance, at, like, if you are a--years ago when 
I was working for Congresswoman Lofgren, when you looked at 
like a U.S. citizen who was pushing for their sibling who was 
in Mexico, how long a Mexican sibling getting into the wait 
line would wait at this point, it was something like 120 
years----
    Ms. Jayapal. Right.
    Mr. Jawetz.----based on the number of people who were in 
the line ahead of them, and the number of visas given out each 
year.
    Ms. Jayapal. And, in fact, I took 19 years on a whole 
alphabet soup of visas to be able to get my citizenship, and I 
am so proud to be one of only 14 Members of Congress who is an 
immigrant myself, has gone through the system and seen all the 
ways in which it was broken. Give us one or two very quick 
examples, because I do have a question for Dr. Kerr as well, 
very quick examples of where you see this out of step. We have 
a certain number of visas per category, and yet the number of 
workers that we need for that category is dramatically out of 
step. Just one example to help my colleagues.
    Mr. Jawetz. The most ridiculous basically is that we have 
an immigrant visa program, on statute, 10,000 visas given out 
every single year to other workers. These are for lesser 
skilled, immigration visas, full-time immigration visas into 
the country, and for two decades, we have taken half those 
visas and used them for adjustments under NACARA. So there are 
5,000 visas available every single year for people who don't 
have college education or highly technical skills who want to 
emigrate to the U.S. and contribute as workers.
    Ms. Jayapal. So that is a kind of out of step, but it is 
across the board in every single category.
    I wanted to say, Mr. Kahin, that I hope that we get to 
taste your food someday. I was looking at the beautiful 
pictures. And the National Association of Evangelicals has said 
that our refugee resettlement program is the crown jewel of 
American humanitarianism, and you are a perfect example of 
that. So thank you so much for that.
    And let me turn to Ms. Kerr for this question about labor 
markets and entrepreneurship. We have heard the incredible 
story of Mr. Kahin. It is not just Mr. Kahin that is in this 
situation. We are seeing tremendous entrepreneurship. Can you 
tell me what your findings have been specifically around 
immigrants, the composition of the labor force, and then the 
entrepreneurship levels of immigrants?
    Dr. Kerr. Thank you. So, if you look at immigrants in the 
population, and the labor force immigrants are about 13 percent 
of the U.S. population, and a little bit higher than that in 
the labor force, around 16 percent. They are almost double 
that, still, in the entrepreneurial population. And that is not 
just U.S. alone. I think immigrants are generally found to be a 
lot more entrepreneurial than natives in any immigrant-
receiving country, and that happen both in self-employment as 
well as sort of employer entrepreneur arena, so that is a very 
typical finding----
    Ms. Jayapal. Much greater than their share of the 
population----
    Ms. Kerr. Much greater than--exactly. They are much more 
likely to start firms than natives are.
    Ms. Jayapal. And that is part of the reason we have had so 
much support from the Chamber of Commerce, and back in 2008, I 
wrote an op-ed with the Pacific Northwest director of the 
Chamber on the need for comprehensive immigration reform.
    Mr. Chairman, thank you so much for holding this hearing 
and for all of your work on this issue. I yield back.
    Chairman Yarmuth. Thank you. The gentlelady's time has 
expired.
    I now recognize the gentleman from Pennsylvania, Mr. 
Meuser, for five minutes.
    Mr. Meuser. Thank you, Mr. Chairman, and thank you all very 
much. I think it goes without saying, and it is undeniable, we 
have a border crisis. 144,000 illegals were apprehended in May 
alone. Of course, we don't know how many were not apprehended. 
Yet, at the same time, no one denies, or at least I don't think 
they should, that we are a proud nation of immigrants. The 
President and the Republicans here in Washington are trying. We 
now have engaged Mexico's help in controlling the border and 
their borders. I do believe we follow a ``wide gates, high 
fences'' concept. So as we have orderly known entry into our 
country, and we do our very best to keep drugs and criminals 
from entering our country. We have spent a lot of money on 
expanding judges for asylum adjudication, and we are spending 
billions for care and trying to expand detention centers 
appropriately.
    On the other hand, I think we have the--the Democrat side 
is--provided no funding. It has no interest in border security. 
They have passed an amnesty bill in the House; they have a bill 
now that basically will institutionalize the idea of catch and 
release, where 85 percent do not show up again, and no money 
for law enforcement, ICE or border security.
    So that is the situation here. Mayor, I would like to talk 
about Yuma. Human trafficking, you touched on that a little 
while ago. You said it is certainly--you know, one poor person 
being humanly trafficked in that manner, unwillingly, is a 
tragedy. Could you speak on that briefly?
    Mr. Nicholls. It has a--thank you, Congressman. It has a 
lot to do with, you know, providing for the humanitarian aid, 
you know. I have been accused of taking really strong positions 
one way or the other, but at the end of the day when people 
arrive in the community, that is my concern is the humanitarian 
concern for them and the public safety. So human trafficking 
shows up in a lot of different ways. To me, it shows up in 
recycling children so that people can cross the border. And 
whether or not they claim asylum, because right now only 7 
percent of migrant families that come through the Yuma sector 
actually claim asylum, but as long as they have that minor with 
them, they are able to enter the same process to see a judge 
and await in country. So to me, that child, if it is not a 
family member, is part of that trafficking issue.
    And then the trafficking starts in Mexico. I have talked to 
several officials there, where they track it, but they don't 
have enough--the problem with trafficking is that it moves 
across too many borders, so there is not enough continuity in 
local governments in order to have an impact. It is really a 
federal-level issue to try to get our hands around that.
    Mr. Meuser. All right. I hope to hear from you ideas on 
trying to correct this terrible situation.
    Mr. Nicholls. I have a few.
    Mr. Meuser. Great, all right.
    Mr. Nicholls. Thank you.
    Mr. Meuser. Costs to your budget, to your city, 
unsustainable? Manageable?
    Mr. Nicholls. As a community, it is very unsustainable. Our 
city right now, we don't have a line item for migrant support, 
so we don't actually have dollars, but our community has 
experienced over a million and a half dollars, in the last 
three months, worth of impact for the different elements that 
it takes in order to support that effort. Right now, this is 
the part of the year where our nonprofits are already stretched 
in trying to serve our homeless veterans, the different 
elements of the community that need the support. Temperatures 
hotter, there is less work, and now that our nonprofits, some 
of them are diverted to providing for the migrant families as 
they come through. So there is a real impact from a community 
level of just under a half a million--a million and a half 
dollars since the beginning of the year.
    Mr. Meuser. What about schools, how are your schools doing?
    Mr. Nicholls. You know, the schools right now because the 
migrant families are moving through and they don't stay, we 
don't that dramatic of an impact. There is a constant presence, 
just being close to Mexico, but there is no dramatic impact 
right now in the school system.
    Mr. Meuser. And so housing as well? Housing?
    Mr. Nicholls. Housing, it really has to do with that 
temporary housing and moving through the families. Our shelter 
has gone over capacity four times in the last three months. It 
is just not a sustainable situation, where we can continue to 
bring people in, because the numbers continue to grow.
    Mr. Meuser. And lastly the farms, you mentioned how this is 
disrupting the ability for them to come in and do the work they 
have traditionally provided?
    Mr. Nicholls. Right. So there we have, a lot of the labor 
comes legally through the port of entry. Well, because we have 
removed resources in order to support the family migrants that 
have come through, the wait times are getting dramatically 
longer. As we enter into the winter season, where we have the 
15,000 people--15,000 workers coming through a day, they are 
going to be waiting in line an extra hour to an hour and a half 
just to cross the border because the resources aren't allocated 
where they need to be for the legal part of the migration 
process every day.
    Chairman Yarmuth. The gentleman's time----
    Mr. Meuser. Thank you, Mr. Chairman. I yield.
    Chairman Yarmuth. Thank you. The gentleman's time has 
expired.
    I now yield five minutes to the gentleman from New Jersey, 
Mr. Sires.
    Mr. Sires. Thank you, Mr. Chairman, and Ranking Member, for 
holding this hearing. You know, I represent a district of New 
Jersey which is 44 percent of the people in my district who are 
born outside of this country. I, myself, am an immigrant. I 
came to this country when I was 11 years old as a refugee, 
refugee from Cuba, and I always tell this story. When we landed 
in Miami, they took us to the refugee center. They knew that we 
were going to New Jersey. They gave me a hat, glove, and a 
coat. My brother also. And we went on to New Jersey. My parents 
also. I tell people, that was a great investment by this 
country. I have been paying taxes all these years, my family 
and myself. I am still paying taxes. So as far as I am 
concerned--I also created a business. I employ people--so as 
far as I am concerned, this country made a great investment in 
the Sires family, because I am here. And the greatness of this 
country is the fact that I came as a refugee, I am here in 
Congress, and my vote here is as good as anybody that was born 
here. And I care for this country as much as anybody that was 
born here. Probably more. Because I appreciate the opportunity 
that was given to my family. So when I hear about all these 
things about immigrants, how bad they are, you know, I just 
don't buy it.
    Of course, everybody wants legal immigration. Nobody wants 
illegal immigration. The condition of some of these people in 
this country are so horrible that they may not have a choice. 
But they do come and work. And one of my questions that I have 
is, when people that are not legally here work, some of them 
contribute taxes, right? Some of them contribute to Social 
Security, right?
    Mr. Jawetz. Absolutely.
    Mr. Sires. Do they get that money back?
    Mr. Jawetz. Not now, no.
    Mr. Sires. No. Do you know how much they contribute that 
they don't get the money back that they work for?
    Mr. Jawetz. I should have that in front of me right now. It 
is trillions. I mean, trillions of dollars basically in payroll 
taxes that are contributed into the system in the long run.
    Mr. Sires. And they don't get that back in Social Security?
    Mr. Jawetz. I mean, at this stage, no. I mean, there is a 
way in which if you can--if you are paying through an I-10, you 
can sort of track that down the road. There are ways in which 
you could potentially do it, but most of that money right now 
is left on the table.
    Mr. Sires. Right now it stays in the budget, wherever it 
goes?
    Mr. Jawetz. That is right.
    Mr. Sires. The other aspect is that we make it more 
difficult for people even who are here legally to become 
citizens. You know, I go to ceremonies all the time, and I 
swear people all the time. I just find out the other day that 
if you become a citizen, and you get the certificate that says, 
you know--which my father used to have in the living room, if 
you lose that certificate, now they charge you $500 to get a 
copy of that certificate. Or if you misplace it. And it is now 
close to a thousand dollars to become a citizen. We just keep 
making it more and more difficult for people to become 
citizens, even if you are here legally.
    You know, we had a bill that came from the Senate, close to 
70 votes in the Senate, came here, and because a group of 
people didn't feel like they were going to support it and were 
going to create hell, it never went through. And that was a 
bipartisan effort for a comprehensive immigration bill.
    Mayor, I know--I was a mayor for 12 years. Ninety-four 
percent of the student body in the town that I represented were 
Hispanic. So you can--and they didn't speak English--so you can 
imagine the pressure on the budget of that community. Pressure 
on housing, pressure on everything. And you know, one of the 
things, across the street from me there is the supermarket, and 
when this whole thing started with the President and people 
became fearful, the owner of the supermarket came to me and 
said, you know, my business is down 35, almost 40 percent, 
because a lot of people became afraid and moved someplace else, 
and they didn't buy in that store.
    You know, I had the same problems with housing, police. And 
generally I find that immigrants are pretty respectful to 
teachers and police officers. This business that they all come 
here and somehow they are criminals, I don't buy that. I lived 
it. So, you know, we just can't keep making it more difficult 
for people who are here to become citizens. And it is all about 
the fear of the vote. Let's be realistic. They don't want 10 
million people to become voters in this country. And that is 
the reality of it, because you know which way they are going to 
vote, most of them anyway, except for the Cubans. Thank you, 
Chairman.
    Chairman Yarmuth. The gentleman's time has expired.
    I now recognize the gentleman from Georgia, Mr. Woodall, 
for five minutes.
    Mr. Woodall. Thank you, Mr. Chairman, and thank you for 
holding the hearing. I wanted to answer Mr. Sires' question 
about do you know how they are going to vote. The immigrants I 
know, and 26 percent of my bosses are first-generation American 
families. They vote based on faith and family and education and 
opportunity. So to Mr. Sires' point, who is my good friend, I 
know exactly how they are going to vote in the great state of 
Georgia, and we will continue to----
    Mr. Sires. Let's make them citizens.
    Mr. Woodall. You are exactly--you are exactly right.
    Mr. Sires. Let's make them citizens.
    Mr. Woodall. I took offense to Mr. Jawetz, it was a side 
comment that Georgia was passing laws to run immigrants out of 
that state. That is just nonsense. There is a rule-of-law 
conversation that has happened in the great state of Georgia. 
And, again, my immigrant population is growing wildly in the 
very best tradition of America. The past of this country was 
based on robust immigration, the future of this country is 
based on robust immigration, and Georgia is no exception to 
that.
    I wanted to ask Mr. Kahin, opening your fourth restaurant, 
can you just tell me, did the tax bill, did it help you at all? 
Did it help the family business at all, like, when we passed 
the tax bill two years ago?
    Mr. Kahin. You know, lately, it has been--it has been good, 
but I think--I opened my restaurant in 2010.
    Mr. Woodall. The first one in 2010?
    Mr. Kahin. Yes. I opened the first one in 2010.
    Mr. Woodall. And when the second one?
    Mr. Kahin. The second one, 2015. And two----
    Mr. Woodall. And the third?
    Mr. Kahin. This year.
    Mr. Woodall. This year?
    Mr. Kahin. So it is equally----
    Mr. Woodall. I am following that growth. I hope that growth 
continues. We were having an economics discussion. I just 
wanted to ask, is there anybody of economic thought that says 
that illegal immigration is more economically valuable to the 
country than legal immigration?
    Dr. Kerr. And so, I can start with that. It is actually 
surprisingly hard. So in many of the data sets that I use--and 
I use these large Census Bureau-collected data--we don't know 
whether someone is an illegal or legal immigration. We don't 
know anything much about the circumstances upon their entry. So 
the best case we can usually tell is whether they arrived as 
children or as adults. But there is nothing really in there 
that would tell us anything about the circumstances surrounding 
their entry. So I would love to have data to be able to 
actually look at some of these questions regarding illegal 
versus legal, but that is just--that is sort of, almost by 
definition, is not there. And even among the legal, the 
different groups of immigrants, whether you came under an H-1B 
visa or came under--as a sort of--your parents migrated and you 
migrated with them and they had a legal immigration----
    Mr. Woodall. I guess I wouldn't of thought it was that 
complicated, Dr. Kerr.
    Dr. Kerr. I wouldn't have thought either.
    Mr. Woodall. But I am thinking about the folks who are able 
to live out their very best American Dream in my district. 
Those folks with papers are able to pursue that dream in ways 
that folks without papers can't. Even in my district, we have 
so many H-1B and E-2s, folks with H-4 visas now are struggling 
to live out that highest and best dream.
    And Ms. Jayapal, and I have a bill to fix that. You see 
that in real life every day, Mayor, the wonderful benefits of 
legal immigration. Tell me about the 15,000 folks that--we 
always talk about H-2As as if they are going to make a big 
difference. You said your legal-immigration population that 
comes in every day and goes back home every night dwarfs the H-
2A participants in your area?
    Mr. Nicholls. That is correct. That is correct. There might 
be a little bit of crossover in that, in the H-2A population. 
Some of them are American citizens who have just chosen to live 
in Mexico, and then some of them have different guest worker 
program participation.
    Mr. Woodall. We have talked a lot about a lot of topics 
that are not what the Chairman had on the agenda today, but I 
was surprised, as many of you were, when President Trump said 
in the State of the Union, I want people to come into our 
country in the largest numbers ever, but they have to come 
legally. Again, economics discussion, does anybody take issue 
with that? I support that. I also want folks to come in the 
largest numbers ever, but I want them to come--to come legally.
    Mr. Kahin, I have in my district, folks on H-1Bs, so they 
brought their children here with them. They are on H-4s. They 
have been in line for 15 years in some cases, paying taxes just 
as your family is. Now their kids are aging out of the system. 
DACA protects families who came without a visa, but it does 
nothing for families that came here legally with a visa. How 
long was the wait for you? From the day that you decided to 
make your way to this country, what was the wait time?
    Mr. Kahin. I think about eight months.
    Mr. Woodall. Eight months?
    Mr. Kahin. Yes. And it was to Georgia--Atlanta, Georgia.
    Mr. Woodall. You flatter me by saying that. My question is, 
why couldn't we keep you? Why couldn't we keep you there? What 
led you to leave--to head to Minnesota instead of sticking 
around in the great state of Georgia?
    Mr. Kahin. Maybe the snow.
    Mr. Woodall. I can believe that.
    Mr. Chairman, I hope we have a chance to do a round two, 
because from the apples to apples comparisons that Dr. Kerr was 
making earlier to some of the dysfunctional, legal-system 
issues that Mr. Jawetz observed earlier, there is a lot more 
information to gather from this witness panel.
    Chairman Yarmuth. We will think about that. The gentleman's 
time has expired.
    I now recognize the gentleman from California, Mr. Peters, 
for five minutes.
    Mr. Peters. Thank you, Mr. Chairman. I have really enjoyed 
this. You have been a great panel. In San Diego, which I 
represent, we know that our community is vibrant and booming 
from immigration. And in my district, the fastest growing 
racial group actually is Asian American Pacific Islanders. AAPI 
businesses have created over 50,000 jobs in San Diego County.
    I also think it is kind of amusing to sit here where we 
seem to agree on so much. We agree that the immigration system 
is broken. We agree that we are against illegal immigration. We 
agree that we are for legal immigration, but no one has 
acknowledged the--what maybe we should say out loud is that 
Congress has the power to decide what legal immigration is. And 
if we don't like what it is today, why don't we make legal what 
is good for America?
    And I would just ask Mr. Jawetz a question. If the--well, 
and just maybe say one more time that people have acknowledged 
that the Senate did take this up in 2013. That was my first 
year in Congress. And I thought, oh boy, we are going to solve 
this problem. And then I found out that the Speaker, Mr. 
Boehner, at that time, could keep something off the floor from 
even being voted on. Sixty-eight votes in the Senate, very 
bipartisan, would have provided $40 billion for border 
security, which was a big, tough nut to digest for a lot of 
Democrats, but would have solved a lot of the numbers problems, 
would have reunited families and done a lot of the other things 
we all say we want to do. So that is before us. Again, we could 
do that.
    Mr. Jawetz, we hear often this notion from opponents of 
immigration that immigrants will take American jobs. Would you 
explain why that is not the case?
    Mr. Jawetz. Sure. And I think Dr. Kerr can get into it as 
well, but economists have looked at this repeatedly and what 
they basically do is they talk about this in terms of whether 
immigrants are competing or if they are complementing the 
American workforce. And by and large, in most aspects, 
immigrants are complementing the American workforce, not even 
considering the additional entrepreneurship of just straight 
creating jobs out of whole cloth.
    Mr. Peters. Because they are filling new jobs, not taking 
existing jobs, is that essentially what it is?
    Mr. Jawetz. They are often filling new jobs, and frankly, 
because of the complementary aspect of it, by filling new 
introductory-level jobs, they actually free up the opportunity 
for additional managerial jobs and other things for American 
workers. We see some of the biggest gains actually among 
African American workers who end up getting higher level, more 
managerial jobs often when the entry-level jobs are being taken 
by immigrants, especially new immigrants who may not have the 
same native language fluency as American workers.
    Mr. Peters. Right. And with respect to the 2013 bill, you 
mentioned that the CBO estimated a reduction in the federal 
deficit of nearly a trillion over 20 years.
    Mr. Jawetz. That is right.
    Mr. Peters. How is that possible?
    Mr. Jawetz. I mean, it is two things basically. One part--
and this sort of goes to the question that was asked earlier by 
Mr. Woodall whether legal immigrants or illegal immigrants are 
more economically productive--there is an economic boon 
essentially from getting legal status. It is absolutely true 
that the wages of undocumented workers are unnaturally 
suppressed, and that is not good for them or for anybody else. 
And so providing a path to citizenship for the 10\1/2\ million 
people who are undocumented right now, 7 million of whom are in 
the workforce, would actually result in an economic benefit to 
them and to their wages and to the wages around them.
    But then separately, also, what that bill did was actually 
change the legal immigration system going forward to bring in 
those immigrants that it seems like we have general consensus 
would be a good thing to have in this country because we can 
stimulate additional economic growth, and if the economic 
growth and the dynamic scoring that was done on that bill and 
the tax contributions made by those individuals over 10, 20 
years, that would end up paying down that deficit.
    Mr. Peters. So legalizing people who are here today, 10\1/
2\ million people, who are--most of them are part of the 
economy, would actually help the Americans who are already 
citizens?
    Mr. Jawetz. Absolutely.
    Mr. Peters. Economically speaking?
    Mr. Jawetz. Absolutely, yes.
    Mr. Peters. Would not take their jobs?
    Mr. Jawetz. No. That is--first of all, for the folks who 
are here, they are already in the workforce----
    Mr. Peters. Right.
    Mr. Jawetz.----so let's be clear with that, they are 
already in the workforce anyway.
    Mr. Peters. Can you talk to me about how aging plays into 
this? So the population is aging. How is the addition of 
immigrants consistent with or helpful to dealing with that?
    Mr. Jawetz. Yeah, totally. So immigrants who come into the 
United States today are, by and large, in their working and 
reproductive prime of their lives, unlike, frankly, the 
American, you know, workforce which is aging and is reproducing 
at a lower and lower rate over time. And so, when you think 
about sort of the growth rate curve, the growth rate for this 
country and the prospects of not being a country that is skewed 
toward people who are no longer in the workforce and are 
counting upon retirement benefits and the like, immigrants are 
breathing new life into that system, and are hoping to keep it 
solvent today and for years going forward.
    Mr. Peters. So someone suggested that the cost of 
immigrants offset the benefits they were providing by paying 
into social benefits programs. Is that correct?
    Mr. Jawetz. No. I mean, the National Academy of Sciences 
did an exhaustive study and literature review two years ago, 
and what they found is, yes, there are costs--this is actually 
relevant to the Mayor as well. There are costs of immigration 
to this country, particularly the cost of children, because 
surprise, surprise, I am a father of two. Children are a huge 
suck on the economy, right. They are pretty economically 
useless at first, but they are an investment, and then 
eventually that investment pays off, and it pays off in spades, 
especially for second-generation immigrants.
    And so, you know, also there are additional costs in 
certain communities that have the largest populations 
initially. And so, you know, as part of the immigration reform 
conversation, we maybe should have a conversation about the 
redistribution of support from the federal government to 
communities that have the largest shares of immigrants and new 
immigrants who are seeing some impact in their housing market, 
in their schools, and the like. But overall, immigrants are an 
economic boon for this country, fiscally and economically.
    Mr. Peters. For all of us.
    Mr. Jawetz. For all of us.
    Mr. Peters. Thank you very much. Mr. Chairman, I yield 
back.
    Chairman Yarmuth. The gentleman's time has expired.
    I now recognize the gentleman from Ohio, Mr. Johnson, for 
five minutes.
    Mr. Johnson. Well, thank you, Mr. Chairman. Important 
hearing today, and I appreciate our panelists being here. I 
represent rural eastern and southeastern Ohio, where many small 
businesses rely on H-2B visas.
    As you may know, the H-2B program is a small but very 
necessary part of the American economic landscape, helping to 
create and sustain jobs in my district and across the country. 
I am grateful to the Administration for recognizing the 
unprecedented employer demand for H-2B workers and raising the 
cap by an additional 30,000 visas for the rest of fiscal year 
2019, but this temporary relief does not solve the problem.
    In fact, without substantial and immediate reform to this 
visa program, some of the small businesses in my district are 
at risk of losing everything because they can't get their 
workers. I think we can all agree that there is no reason to 
have a visa program that puts American businesses out of 
business, and that was certainly not the intent of this 
program.
    Mayor Nicholls, as the Mayor of Yuma where 175 different 
crops are grown year round, can you talk about your business 
community's experience with this visa program? What kind of 
economic impact would immigration reform that allowed for a 
stable legal immigrant workforce have on seasonal businesses 
where you live?
    Mr. Nicholls. Thank you, Congressman. Yeah. We focus 
primarily on the H-2A program, and it is a very difficult 
program to enact. In order to have someone participate in that 
program, they have to go to a certain embassy in their country, 
sign up for a very particular workforce element, whether it is 
picking a specific crop during a specific time period for a 
specific employer. And then, if there is an event that ruins 
that crop, now that worker's in limbo. The company is having a 
hard time figuring out what to do with that worker, so there is 
those kind of constraints. And there is a shared limit, a 
number of people that can be in the program in the region. And 
that is limiting our workforce, which is part of what I talked 
about with the tens of thousands of acres of fresh produce that 
went to Guanajuato, Mexico. It is because there weren't enough 
workers and enough visas to service that area.
    Mr. Johnson. Okay. Well, thank you.
    Mr. Jawetz, in your testimony, you say, and I quote, ``The 
contributions of foreign-born workers through the payroll taxes 
are shoring up the country's social safety net for years to 
come and helping ensure that we honor the commitment we made to 
older Americans now turning to those programs for support,'' 
unquote.
    When you say foreign-born workers, are you including the 
undocumented immigrants who would be given lawful permanent 
resident status under H.R. 6?
    Mr. Jawetz. Yes. So in general, all foreign-born workers--
--
    Mr. Johnson. Yes.
    Mr. Jawetz.----undocumented and documented, yes.
    Mr. Johnson. Well, then let's take a look at the effect on 
Social Security with H.R. 6. In your view, would H.R. 6 make 
Social Security solvent?
    Mr. Jawetz. Well, so I mean, you know, it is hard to say, 
right? So right now, you are talking about H.R. 6----
    Mr. Johnson. How much does it move the dial?
    Mr. Jawetz. So that hasn't been calculated and CBO didn't--
--
    Mr. Johnson. So we don't know. So you say it is going to 
improve the economic status and shore up that safety net, but 
you have no idea how much?
    Mr. Jawetz. Sir, it is two different parts of my testimony. 
I mean, you know----
    Mr. Johnson. All right. Well, for the record, let me tell 
you that CBO has reported that H.R. 6 would barely move the 
dial on Social Security, so CBO's opinion is diametrically 
opposite to yours. Let me ask you another question.
    Mr. Jawetz. And so on that point, can I say----
    Mr. Johnson. In your testimony, you mention H.R. 6, that if 
enacted, I quote, the bill would have a positive social and 
economic impact on states and communities all over the country. 
So do you endorse H.R. 6?
    Mr. Jawetz. We fully endorse H.R. 6, yeah.
    Mr. Johnson. Okay. Great. Do you know the impact that H.R. 
6 would have on the federal budget?
    Mr. Jawetz. Yes. So when you look at the CBO score----
    Mr. Johnson. What is your view? How much?
    Mr. Jawetz. So when you look at the CBO score, what CBO did 
not do for H.R. 6, but they did do----
    Mr. Johnson. Well, according to CBO, H.R. 6 would add over 
$30 billion to the federal deficit over 10 years. So how would 
you recommend that we pay for H.R. 6?
    Mr. Jawetz. So we did a study of the DREAM Act 
specifically, just the DREAM Act portion of it and----
    Mr. Johnson. No, no. I want to know how you think we are 
going to pay for it.
    Mr. Jawetz. So I am going to try and answer this question.
    Mr. Johnson. I have only got 24 seconds. How do you think 
we are going to pay for it?
    Chairman Yarmuth. I will give the gentleman more time if 
you allow him to answer the question.
    Mr. Jawetz. I think it would be helpful for you to know we 
did a study of just the DREAM Act portion of the legislation, 
not H.R. 6 specifically, but the DREAM Act, generally, a couple 
of years ago. And if you do do essentially what CBO would do if 
they did dynamic scoring, if you look at the long-term economic 
impact of the bill, we saw a gain of $1 trillion basically over 
10 years, in providing legalization for people who are 
DREAMers, right, because they are----
    Mr. Johnson. But you are still not answering my question. 
How would you recommend that we pay for H.R. 6?
    Mr. Jawetz. I think--honestly, I mean, I wasn't here for 
when PAYGO--I mean, I wasn't a Member of Congress who voted for 
the PAYGO rules that exist right now. I would say that just 
like what I said earlier about children being an economic suck, 
but really actually are an investment in our future, passing 
legislation like H.R. 6 that would provide an opportunity for 
legalization for individuals who are already in our country, 
who are becoming educated here, who we have invested in, who 
want to contribute more fully, and unlocking that potential 
would be a great long-term investment for this country, and we 
would reap the benefits of that in the long run.
    Mr. Johnson. Okay. I yield back, Mr. Chairman.
    Chairman Yarmuth. The gentleman's time has expired.
    I now yield five minutes to the gentlelady from Illinois, 
Ms. Schakowsky.
    Ms. Schakowsky. Thank you. You know, it is tempting to use 
a bunch of time just venting my fury about what I am seeing and 
the heartbreak at the border, but also in my community, where 
there is so much fear.
    Mr. Jawetz, you have a lot of experience working on issues 
related to immigration detention, and you have even represented 
detainees challenging unlawful conditions of confinement. So, 
in your experience, what have the courts found to constitute 
unlawful conditions of confinement, and how does that compare 
to what we are seeing at the border today?
    Mr. Jawetz. So under the 8th Amendment to the Constitution, 
you cannot provide deliberate indifference to serious medical 
needs, for instance. That is just the general 8th Amendment 
standard. The 8th Amendment, though, isn't actually the 
relevant standard when looking at civil detainees like 
immigrants in custody who are not being punished. They can't 
constitutionally be punished. And so, really, what it comes 
down to there, essentially, is looking at their fundamental 5th 
Amendment due process rights to protection. And you know, the 
courts are different as to what that means in different 
circuits. But in the 9th Circuit, certainly, under a case 
called Jones v. Blanas, if you treat a person who is in civil 
custody the same as you would treat someone who is in pretrial 
criminal custody, or certainly post-conviction custody, then 
that would be--you know, that would be presumptively 
unconstitutional under the----
    Ms. Schakowsky. So is it safe to say that failing to 
provide children with soap and a toothbrush and forcing them to 
sleep on concrete floors in cold, overcrowded cells is not only 
inhumane, but unlawful, an unlawful condition of confinement?
    Mr. Jawetz. So it is certainly unlawful with respect to the 
actual settlement agreements that govern the treatment of 
children in custody, and that is just as enforceable, 
obviously, as the constitutional protections. You know, I would 
say over time, courts and Congress have reduced the ability for 
individuals who are in custody to actually recover for 
violations of their rights. Actually, the last time I was here 
testifying back in 2007, I was sitting right next to a client 
of mine at the time, Francisco Castaneda, who had been in 
immigration custody for 11 months. And from day one, when he 
walked in the facility, they knew that he needed a biopsy in 
order to rule out cancer, and for 11 months, they denied it to 
him. And when he finally walked out the facility door after we 
did a demand letter, the doctor who walked him out said get 
yourself to an emergency room. By that point, he already had 
metastatic penile cancer, testified before Congress, and a few 
months later, had passed away.
    And the Supreme Court, frankly, 9-0 actually, ruled that 
because Congress under the Public Health Services Act ruled 
that the Federal Tort Claims Act is the exclusive remedy for 
individuals who are mistreated by veterans--by the folks who 
are treating him in the public health service, he was not able 
to recover at all for the unconstitutional conduct that he was 
subjected to that the----
    Ms. Schakowsky. Let me ask.
    Mr. Jawetz.----lower courts thought was abhorrent.
    Ms. Schakowsky. What kind of impact will the 
Administration's cruel and inhumane mass detention of refugees 
and asylum seekers have on the economy? I heard a woman on 
television last night say that each child actually costs about 
$750 per night to keep in the ineffective, inhumane custody 
that they are in right now. But we keep hearing about there is 
not enough money. We are spending a lot of money, aren't we?
    Mr. Jawetz. Yeah. We are spending a tremendous amount of 
money on the most expensive way of handling the situation 
possible. There were, at the time the Administration started, 
took over, basically, there was a program in place that allowed 
for pennies on the dollar, basically, to release families into 
intensive supervision programs, basically, in which we are 
seeing, actually, phenomenal results of folks showing up for 
proceedings.
    Ms. Schakowsky. Let me also--I met with the U.S. tourism 
operators, and they said there has been a 20 percent decline in 
tourists in the United States. What does that mean for us? I 
mean, and they attribute it--I asked, have these immigration 
policies deterred people from coming, and they attributed that 
to the decline.
    Mr. Jawetz. Yeah. I think this sort of goes to the earlier 
points, you know. If it is, in fact, the case that the 
Committee Members on all sides of the aisle are supportive of 
immigrants and more immigrants coming to the country, I think 
that is not what the Administration's official policy is, and 
what their stated preference is. Stephen Miller's goal, and 
many people who he has brought into the Administration who are 
influencing policy, the folks again at FAIR, Members USA and 
several other immigration companies----
    Ms. Schakowsky. All right, let me ask----
    Mr. Jawetz.----is to reduce immigration to the country.
    Ms. Schakowsky. Let me ask you one more question. The 
President has threatened to remove millions of Americans, to 
deport them from the United States. How would mass deportation 
impact our economy?
    Mr. Jawetz. I certainly got to that in my initial 
testimony, and I would refer folks to my remarks. But if we 
were to pursue a policy of mass deportation and removing all of 
just the 7 million workers in our economy who are undocumented, 
it would, you know, potentially lead to a reduction in 
cumulative GDP of up to $4.7 trillion over 10 years, and 
reductions up to 18 percent of the workforce in certain 
industries. It would be devastating.
    Ms. Schakowsky. Thank you. I yield back.
    Chairman Yarmuth. The gentlelady's time has expired.
    I now yield five minutes to the gentleman from Texas, Mr. 
Roy.
    Mr. Roy. I thank the Chairman. I thank all the witnesses 
for being here and taking the time to address the Committee on 
this important issue. I realize the purpose of this hearing, of 
course, is to focus on the economic impact of immigration, 
illegal, legal, et cetera, and trying to figure out policies to 
address it. A number of times in this hearing, both sides of 
the aisle, we have been talking about the crisis at the border.
    I would just like to bring to the attention when we are 
talking about pointed comments about this Administration's 
handling of the border, that it was my colleagues on the other 
side of the aisle for the last five months who repeatedly kept 
saying there was no crisis at the border. There is public 
record over--and it is true. It is true. There is statement 
after statement after statement after statement by Members of 
the Democrat House of Representatives, Democrats in the House 
of Representatives, making statements saying there was no 
crisis. Look at the public record. Go find it because it is 
true. They called it a manufactured crisis, said it wasn't 
happening.
    And as a result, we have dead migrants. We have pictures on 
the front of the newspaper showing a father trying to get his 
child across the Rio Grande, understandably, because we, the 
most powerful nation in the history of mankind, refused to 
create a system and to secure the border in such a way that 
that father with his child knows how to get here, the rules to 
follow, and to do so safely. Rather than risking a difficult 
journey, being guided predominantly by cartels, and not just 
cartels generically as if this is some sort of fictitious 
thing. Very specifically, the Gulf cartel's Reynoso faction, 
the cartel Los Zetas, the Sinaloas, who are making hundreds of 
millions of dollars moving people through Mexico to come to the 
United States, and not one of us on either side of the aisle 
takes anything away from the individuals who want to do that.
    It makes sense. We understand it. But it is unconscionable 
that this body won't do anything about it. And now we have, on 
the floor of the House of Representatives, legislation that is 
alleged to address this situation but does not do anything to 
stem the flow or the pressure valve. It does nothing to create 
places where we can have detention facilities at ICE in order 
to push back on the numbers of people that the cartels are 
going to continue to drive across the border for profit. And to 
use the facilities that we would create with this $4.5 billion 
for Border Patrol to house people at the border, to process 
them, to then do what? We are going to complete the cycle of 
the profit-making machine that the cartels use to move people 
across our border.
    When are we going to sit down around a table on a 
bipartisan basis and recognize that this problem needs to be 
solved? Last year, I heard one of my colleagues here talk about 
previous legislation that was rejected for one reason or 
another. I would remind this body that last July, there were 
two votes on the immigration issue. One vote got 191 Republican 
votes. The other bill got 121 Republican votes. Differences of 
opinion within the conference. Not one Democrat supported 
either of those bills, bills that would have reformed the 
system to be a points-based system, to help streamline the 
process and get people here so they can work and have a better 
immigration system. Another part that would have secured the 
border, dealt with the asylum issue, dealt with the Flores 
issue, dealt with the very magnet that the catch-and-release 
system is empowering the cartels to profit, moving these people 
across the border, in which they then die in the process.
    It is the height of arrogance and hypocrisy for those who 
sat here ignoring this problem for months on end, to then point 
to Border Patrol, to point to the people who are trying to 
figure out how to solve the problem, when they have got 
facilities to house a few thousand, and they have got three and 
four and five times that number of people to figure out what to 
do with. And to then point to them and say they are somehow 
violating the decency of how they are handling these people 
when Border Patrol is saving lives on a daily basis?
    Unfortunately, they didn't get to save the life of that 
father and that child yesterday, or a few days ago when that 
unfortunate tragedy happened. But when are we going to come 
together to solve this problem? We cannot, to the point of one 
of my colleagues, on both sides of the aisle made this point, 
at the same time, have a ``help wanted'' sign and a ``no 
trespassing'' sign at the border.
    And that is a bipartisan problem, I will acknowledge, but 
my colleagues on the other side of the aisle have been ignoring 
this crisis for a long time. I would like to talk about the 
cost issue. It is an important issue. But it is not possible 
for me to continue to listen to that kind of pointed testimony 
about this Administration, ICE, and CBP, when you go back and 
you look at the previous Administration, and we talk about kids 
sleeping on floors. The pictures that were circulating around 
this week of kids sleeping on concrete were from 2015, and yet, 
they were being said as if it was this Administration.
    We have got to stop the hyperbole and actually figure out 
how to sit down and solve the problem. I yield back to the 
Chairman.
    Chairman Yarmuth. I think the gentleman's time has expired.
    I now recognize the gentlelady from Texas, Ms. Jackson Lee, 
for five minutes.
    Ms. Jackson Lee. I thank the Chairman very much and the 
Ranking Member for this important hearing, and I feel the 
passion of my fellow Texan, understand his interpretation. 
Having been here a little longer than the gentleman, I have the 
historical perspective of how we dealt with immigration and the 
question of immigration reform. Almost two decades, I 
introduced comprehensive immigration reform. Most of my bill 
was incorporated in the 2010 McCain Gang of Eight effort that 
was almost at the front door of the President of the United 
States. But unfortunately, the Republican-controlled Senate did 
not have the passion and capacity to pass the legislation. I 
say that to say so that the record can be established that the 
crisis was really created by the pointed remarks of the 
Commander in Chief, President of the United States, throwing 
immigration bombs, if you will, mass deportation, blocking the 
bridges, setting policies for people to live in squalor on the 
Mexican side of the border.
    And so, unlike those of you who seem to be presenting here, 
we are having elusive discussion, we lost all reason. Let me 
set the record straight. The tragedy of Mr. Martinez, or the 
family of the gentleman and precious daughter and precious wife 
actually presented themselves at the international bridge at 
Matamoros, and were told to seek asylum, fleeing violence, and 
were told that the bridge is closed.
    I am from Texas, so I know bridges cannot be closed. And I 
know that there is no end to the amount of people that could 
get in line, although it would be a long line to present 
themselves for asylum, which is still not only the law of the 
United States, but it is international law which we have agreed 
to.
    I think it is important to set the record straight, having 
been at the border during the time of the gentleman's comments 
in 2014, 2015, having seen unaccompanied children come off the 
bus, I was there. I understand. At least in the previous 
Administration, there was the effort to try to address it in a 
mandatory manner.
    So let me go quickly as my time--Mr. Jawetz, let me just 
get a number of how much the economy would be driven positively 
if comprehensive immigration reform was to be passed. We have 
had a variety of numbers. It would mean people would have 
access to citizenship. They would get in line. Let me be very 
clear. The legislation would not put people that were 
undocumented in front of those who had been in line, but what 
would that engine be?
    Mr. Jawetz. Sure. So when Congress in 2013 passed S. 744, 
CBO and the Joint Committee on Taxation did a number of 
different reports, both a specific score of the bill, and also 
an economic impact report that was part of the dynamic scoring 
of it. And what they found was that passing that legislation 
would have decreased federal budget deficits by about $1 
trillion over 20 years, would have increased the nation's GDP 
by about 3.3 percent in 10 years, and 5.4 percent in 20 years, 
and the increased average wages of American workers within 10 
years.
    Ms. Jackson Lee. And so over a period of time, there would 
be constant growth----
    Mr. Jawetz. Yes.
    Ms. Jackson Lee.----in the budget, maybe to be able to have 
a more humanitarian response to those who would be possibly 
still coming, unfortunately, but maybe because of regular 
order, we would have a process for individuals to cross the 
border, whether it is the northern border, the southern border, 
or otherwise. Is that correct?
    Mr. Jawetz. I mean, Acting Secretary of Homeland Security 
Kevin McAleenan, just a couple of weeks ago, testified before 
Congress that had that bill itself been enacted into law, it 
would have actually provided additional resources that have 
could help to address the challenges they are facing now.
    Ms. Jackson Lee. I am always seeking common--reasonable 
ways--commonsense, reasonable ways to address this question. 
Give me that trillion number again, please. I need it to be in 
the record louder than ever.
    Mr. Jawetz. Sure. So basically if that legislation had been 
enacted into law, the budget deficit would have been decreased 
by about $1 trillion over 20 years.
    Ms. Jackson Lee. $1 trillion. Mr. Kahin, let me thank you 
for your presence here. Tell me how you got here, sir?
    Mr. Kahin. I got here as asylum, and I apply asylum, and I 
got it about 12 to 18 months, and I started going to school.
    Ms. Jackson Lee. So you fled violence from Somalia?
    Mr. Kahin. Yes.
    Ms. Jackson Lee. And so you understand it is reasonable 
that people could be sacrificing their lives to flee violence?
    Mr. Kahin. Actually, I am one of the luckiest people, you 
know, from there, but I know thousands of people in Africa and 
Somalia who are fleeing from the civil war and dying, you know, 
in the sea. Those are by thousands, I think, every month.
    Ms. Jackson Lee. And so you have a business. Are you 
pouring into the economy--when I say that, is your business now 
turning back into the economy with employees? Can you tell me 
how many employees you have?
    Mr. Kahin. I have about 60.
    Ms. Jackson Lee. About 60 employees?
    Mr. Kahin. Yes.
    Ms. Jackson Lee. And training young people or training 
others as well in your employment?
    Mr. Kahin. Yes. I have, you know, students who, you know, 
do--I mean, I employ during the school year or, you know, they 
are off. And I also have people who started from dishwashing 
who are right now chefs, and some of them are also managers.
    Chairman Yarmuth. The gentlelady's time has expired.
    Ms. Jackson Lee. I thank the gentleman. I am sorry I didn't 
get to the other witnesses, Mr. Chairman. I thank you and the 
Ranking Member for your courtesies, but I think we have made 
the record over and over again. Thank you so very much.
    Chairman Yarmuth. I thank the gentlelady, and now recognize 
the gentleman from Nevada, Mr. Horsford, for five minutes.
    Mr. Horsford. Thank you very much, Mr. Chairman. This is a 
very important hearing to allow us to discuss the economic 
benefits immigrant families contribute to this country, and 
certainly in my home state of Nevada. Since the founding of 
this country until today, immigrants have made strong 
contributions to our society and culture. But they have also 
served as engines for economic growth and innovation, creating 
new economic opportunities for all of us.
    I would like to focus my time today on temporary protected 
status holders. Households with TPS holders contribute $2.3 
billion in federal taxes, and $1.3 billion in state and local 
taxes annually. They hold more than $10 billion in spending 
power. However, the Trump Administration has worked to 
systematically dismantle our immigration system over the past 
two years, in which he has ended TPS protections for six out of 
10 countries, including El Salvador, Haiti, Honduras, Nepal, 
Nicaragua, and Sudan.
    That represents nearly 318,000 individuals from those 
countries alone. And according to the National Immigration 
Forum, TPS holders contribute more than $6.9 billion to Social 
Security and Medicare over 10 years. That cannot even--these 
individuals cannot even access those benefits because they are 
not legal immigrants, but they pay into it for you, for me, and 
for everyone working to benefit.
    In my home state of Nevada, there are over 4,000 TPS 
holders from places like El Salvador and Honduras. They work in 
the hospitality, construction, and food and beverage 
industries, contributing over $40 million in federal taxes and 
over $15 million in state and local taxes.
    One of my constituents, Erica Lopez, came to the U.S. from 
El Salvador and has been a TPS holder for 15 years. She is a 
member of the culinary union, and works hard to provide for her 
family every single day.
    Now, when I met with Erica, she told me that when she heard 
about the Trump Administration's efforts to deny the renewal of 
her TPS status, she felt scared and worried for her family. Her 
oldest two children, who are 19 and 22, are also TPS holders. 
But her two youngest daughters, 16 and 12, are both U.S. 
citizens. And again, I want to underscore, these are 
individuals who are here as asylum seekers. They are legally 
permitted to be here. These are not individuals who have broken 
the law. They have followed the law. And now, because of this 
Administration's policies, they are at risk of having their 
families torn apart, losing the homes that they built up, and 
the contributions that they make to our communities.
    So Mr. Jawetz, if the Trump Administration has its way with 
crippling our immigration system, I want to know specifically, 
how would TPS holders be impacted? What would happen to our 
nation's GDP? What would happen to the housing market and 
industries, such as food and beverage and hospitality and 
construction that many TPS holders work in?
    Mr. Jawetz. Thank you so much for the question. So as you 
know, for TPS holders right now who have had their protection 
terminated, because of preliminary injunctions in place by 
trial courts right now, those protections have been preserved. 
And so, people who have TPS, who had TPS, currently are able to 
hold onto their TPS, but that is just holding on by a 
shoestring, right? I mean, you know, court decisions are going 
to come down at some point, and we will see what they 
ultimately decide. If courts permit the termination of TPS to 
go forward, then individuals will lose that protection. And 
unlike with DACA, which is interesting, DACA, because, you 
know, how long you get your protection depends on--the duration 
is two years, but when it expires depends on when you get your 
protection. With TPS, it is all a single date. And so, you 
know, you will see for 200,000 Salvadorians plus, for 50, 
60,000 Hondurans on a single day, they are all going to lose 
their ability to work lawfully in this country and to remain 
lawfully in this country.
    And then, I think, it remains to be seen what happens to 
them in their jobs, whether or not they will be able to leave 
that current job and go to a new job where they are going to 
have to go through another I-9 process and not have work 
authorization for that job. I think that is going to be 
disruptive. If you look at actually TPS holders in 
construction, for instance, we did a specific paper looking at 
TPS holders in six states that experienced really, really 
devastating natural disasters over the last two years. And the 
work that TPS holders in construction right now are already 
doing to help rebuild states like North Carolina, Texas, 
California, Virginia, et cetera, Florida.
    Mr. Horsford. Thank you, Mr. Chairman. I think that this is 
an important area that we need to understand more. I know that 
we are limited on time, but I am thankful to have the 
opportunity to bring the perspective of many of my constituents 
who I am fighting for, and we cannot allow their status to 
expire. They are contributing too much to our communities and 
to our economy to allow that to happen.
    Chairman Yarmuth. I thank the gentleman. His time has 
expired.
    I now yield 10 minutes to the Ranking Member for his 
questions.
    Mr. Womack. Thank you, Mr. Chairman, and I will try not to 
take all of my 10 minutes. I was prepared to yield a little bit 
to Mr. Woodall, only because I like to hear him talk. And I do 
appreciate our panelists today, and particularly, the honorable 
Mayor of Yuma. Boy, us mayors, we have got to stick together, 
and I do appreciate the work you do. I have often said that I 
think Congress would be a lot better off if a criteria for 
being elected was to having been a mayor once upon a time, 
where you had to balance competing interests, and make 
decisions for the greater good of the group that you represent, 
and I think mayors pretty much do that routinely.
    And you know, today in this conversation, we have, I think, 
remarkably found that we agree on a lot of things. First of 
all, we agree that we have a broken immigration system. 
Everybody says that. It rolls off the tongue pretty easy now 
because it is pretty true. And if you polled the average 
American out there, it would be an overwhelming result that the 
feeling border to border, across all political biases, is that 
this immigration system that we have is just simply not working 
for the betterment of the people. Probably so, overwhelmingly, 
in that way, that the only thing that I can think of that might 
be a bigger vote in something broken is our budget process, but 
I will leave that to another conversation. Mr. Yarmuth and I 
happen to have serious agreement on those issues.
    But as I said, we have agreed that we have a broken system. 
So here is a question. Should we have open borders, Dr. Jawetz, 
or Mr. Jawetz?
    Mr. Jawetz. No. I think we can have a system in which we 
have borders, but we also have pathways. We heard earlier this 
idea that we should have, what is it, wide gateways and tall 
fences, I think. But you know, as Sheila Jackson Lee pointed 
out in the case of the father who died with his daughter just 
two or three days ago, they went to one of those gateways, and 
that gateway was closed. And so that is part of dysfunction.
    Mr. Womack. And so if we can agree that we definitely need 
some level of border security in order to protect the 
sovereignty of our country, I mean, there is--I don't know how 
many people are on this planet right now, 7\1/2\ billion?
    Mr. Jawetz. I don't know.
    Mr. Womack. Something like that. I don't know that we 
really know, but it is a lot of people. And a whole lot of them 
are living in abject poverty, read, a lot of those people would 
love to be able to come to this country and enjoy the benefits 
of the pursuit of the American Dream. So the fact is, we have 
to have some kind of a system set up to where people not from 
this country can actually come to this country. And I think 
that the ability to do that, in a manageable way, begins with 
having a secure border.
    Mr. Jawetz. Sorry.
    Mr. Womack. I see you shaking your head in somewhat 
disagreement. So disagree with me on that.
    Mr. Jawetz. Sure. So I don't think it begins with the 
border. The border is too late. You have already--you know, 
David Aguilar, when he was the chief of the Border Patrol, 
testified before Congress in 2007 on the issue of immigration 
reform, and essentially said, the best thing I can do to secure 
the border would be to pass comprehensive immigration reform 
and reform the legal immigration system because I want to get, 
in his words, the busboys and nannies out of the desert and 
through the ports of entry, so I can focus on the folks who 
can't come through the ports of entry, right.
    So before you get to border security and patrolling the 
border and the walls and the rest of it, you would reshape 
entirely what that flow, the mission of security is, having----
    Mr. Womack. Let's say for the sake of the argument that we 
did some kind of comprehensive immigration reform. We are 
probably still going to create lines. Are we not?
    Mr. Jawetz. Sure.
    Mr. Womack. There is going to be a wait time.
    Mr. Jawetz. Yes.
    Mr. Womack. People are impatient. So if the border is not 
secure, what guarantee is there that the people who want to 
come to this country today and don't want to stand in a line, 
are going to be willing to go stand in a line, because we have 
done some kind of comprehension, or when there is a hole in the 
fence, and they can just crawl through the hole in the fence?
    Mr. Jawetz. I guess I have a few thoughts on that. I mean, 
one is the Department of Homeland Security Officer of 
Immigration statistics under this Administration just two years 
ago, reported that the border is more secure now and more 
difficult to cross than ever before in our history. So you 
know, we often hear--and when I was in Congress for seven 
years, we always hear about enforcement first, enforcement 
first, secure the border first, all that discussion. As we 
talked about with Congresswoman Jayapal, we haven't changed our 
legal immigration system since 1990. It has not only been 
enforcement first for the last 30 years, it has been 
enforcement only for the last 30 years. And so, we have got a 
broken immigration system, and it is the system that is broken. 
You cannot enforce your way into fixing that system. More 
enforcements of that broken system will not improve it, and the 
policy proposals that were voted on last year that would shrink 
illegal immigration, that would eliminate the diversity visa 
program, that would make it harder for folks to have an 
opportunity to dream that they could come to the country, will 
only increase the tensions on coming illegally.
    Mr. Womack. So Mr. Kahin, you did this right. You came here 
as a refugee, sought asylum, waited in line, and you are the 
beneficiary of having done that. Should we have a very strong 
immigration policy in this country that would be respectful of 
the fact that people like yourself did do it the right way?
    Mr. Kahin. That is right, Your Honor. I think it is a good 
idea, and I also think it is a good idea to legalize those who 
are already in the country and who are working for years and 
years.
    Mr. Womack. Even if they came into the country illegally or 
overstayed a visa which makes them undocumented today?
    Mr. Kahin. I have no opinion on that, but I will say those 
who are not committing any crime who have benefited, you know, 
this country and the economy, I think it would be best for our 
economy to give them a chance.
    Mr. Womack. So my argument against that is simply this, 
that if, in fact, there is a reward for somebody who has either 
entered the country illegally or overstayed a visa and is now 
if the country illegally, if the reward is that we are just 
going to look the other way on the law and allow them to stay 
here, I think it reinforces my position on border security. If 
that is the case, then you can have all the comprehensive 
immigration reform you want to have and the interior changes 
that you want to make in this country, but if you can still 
come into this country across an unsecure border, I think it is 
not going to serve as the proper deterrent that it should.
    So now I want to kind of switch over to my friend, the 
Mayor. When did you do your budget?
    Mr. Womack. When is your fiscal year?
    Mr. Nicholls. Our fiscal year starts in July.
    Mr. Womack. All right. So you started in July. So you are 
about to end a budget cycle and enter into a new budget year, 
correct?
    Mr. Nicholls. Correct.
    Mr. Womack. So when did you do the budget that affects the 
spending up through the month of June?
    Mr. Nicholls. For this fiscal year, we did last year during 
the May----
    Mr. Womack. Was it early in the year, the spring?
    Mr. Nicholls. Spring. Spring to early summer.
    Mr. Womack. So in your budget deliberations, you and your 
city council, what--how--how were you forecasting the 
allocation of taxpayer dollars to support the institutions 
affected by the crisis that we are facing today?
    Mr. Nicholls. So in the city budget, what our real 
struggles have been is with law enforcement to make sure that 
we can supply for the protection of the community, and so that 
is really where our focus has been, to maintain and grow our 
capabilities in that arena. So the exact--working exactly with 
the migrant situation didn't come into play, except for in that 
arena, because we have been dependent upon the non-profits to 
carry that burden.
    Mr. Womack. So up here we call them supplementals, money 
that we have to allocate down the road, because we didn't see 
it on the front end. Have you had to do supplementals?
    Mr. Nicholls. We have not at this time, because the 
different non-profits have come through with some funding.
    Mr. Womack. Have you had to reallocate money from other 
programs in order to supplement the police? Did you do some 
internal transfers of money from line items to line items?
    Mr. Nicholls. We actually approved the raise prior to the 
budget, but knowing that we are going to the budget, we were 
prepared for that. So we have had some of that going on in the 
years past, and we are prepared with the timing on it this 
time.
    Mr. Womack. So you obviously, because July 1 is Monday, 
have probably completed your budget cycle for fiscal 2020, 
correct?
    Mr. Nicholls. Well, actually, our final approval is in 
July, and there is some overlap there.
    Mr. Womack. And what has happened to the budget 
deliberations for next year that begins on Monday, that were 
influenced by what you have been dealing with here for the last 
several months?
    Mr. Nicholls. Well, we actually lay a little bit into the 
fall before we start our next budget deliberations, so it kind 
of is a wait and see, where does this go as an issue in our 
community to see how things are handled.
    Mr. Womack. So it is uncertain.
    Mr. Nicholls. It is very uncertain, yes.
    Mr. Womack. And so how would Congress doing its job, and we 
can argue about, you know, what the outcome would look like, 
but at some point in time, the Congress, the right and the left 
have to get together. They have to hammer out their 
differences, come to some kind of a compromise to benefit you. 
So how important is Congress doing its job to you?
    Mr. Nicholls. It's extremely important. And if I could 
comment a little bit on whether it is security or law, it has 
to be both at the same time, because where we sit, we are on 
the border. And while it remains unsecure, our community can 
remain unsecure, so we can't wait for the law to catch up. It 
needs to happen now.
    Mr. Womack. I want to thank the panelists. Mr. Chairman, 
thank you again for leading on this hearing. These are 
conversations that we need to continue to have, but we also 
need to be mindful that we have got a crisis that has emerged 
on our border that is still raging and has not been fixed, and 
will not be fixed by what we did yesterday. And I would 
admonish our Congress to get back to work and take the steps 
necessary to solve for that current crisis. And thank you. I 
yield back.
    Chairman Yarmuth. I thank the gentleman, and I now yield 
myself 10 minutes.
    You know, it is, I guess, inevitable that this discussion 
would have focused, to a significant extent, on the current 
crisis, even though that was not the intent of the hearing. The 
hearing was a prospective look at how important immigration is 
and will continue to be for the sustainability of our economy 
and our society.
    And this was mentioned. I was part of the so-called Gang of 
Eight in 2013. We worked for seven months. We negotiated in 
secret. We negotiated as normal human beings would negotiate, 
like you and I would negotiate, and we came up with a plan that 
we were convinced would have at least 260 to 270 votes in the 
House. Again, the Senate had already passed a bill.
    We started with only two preconditions to the discussion. 
One is it had to fix the problems. Two, it had to be able to 
pass both houses. That was it. And we actually knew, the four 
Democrats in the group, that we were going to have to come up 
with something that was at least perceived to be more 
conservative than what passed the Democrat-controlled Senate, 
and we did that.
    And I had no experience in immigration policy. People say 
why in the world are you on that panel? I said well, Kentucky 
was a border state during the Civil War. But I learned an awful 
lot, and one of the things I learned, and Mayor, this relates 
directly to what you just said, that the real problem in doing 
comprehensive immigration reform is that in today's world, 
Republicans want to focus on border security. Democrats want to 
focus on family reunification, the undocumented, and the 
DREAMers, and the easy part is border security.
    That is the easy part: Put up walls, militarize the border, 
put up drones, do all of that stuff, and yeah, you can pretty 
much shut the border down. But you haven't solved the problem 
that this hearing was really meant to address which is how do 
we get people into this country that we desperately need.
    And I was astounded a couple weeks ago. The Chief 
Technology Officer from Microsoft was in my community, and she 
made a statement then that will blow everybody's mind. It was 
over the next 10 years, we will experience 250 years' worth of 
change. If she is 50 percent wrong, we are still talking about 
the same amount of change that we have experienced from before 
1900 until now.
    I talked to a chief, a top guy at IBM who said in the next 
three years alone, artificial intelligence will eliminate or 
significantly change 120 million jobs around the world in the 
next three years. With this kind of activity going on, most of 
it is technology related.
    Dr. Kerr, how critical is it that we have the best minds in 
the world in this country to cope with the rapid change that we 
are going to be facing?
    Dr. Kerr. I do think it is very important, and we are not 
the only country who would like to have the best minds in the 
world to be thinking about some of these problems. I think we 
don't even quite research-wise know what is coming up yet. We 
are trying to grapple with it. I have seen some studies that 
are trying to understand what the impact of artificial 
intelligence and robotization and all these things are going to 
be on our jobs. But I think high-skilled immigrants and, in 
general, just having some of the best minds thinking about it 
needs to be there.
    Chairman Yarmuth. And a huge percentage of our technology 
companies were founded by immigrants. Isn't that correct?
    Dr. Kerr. That is correct. A huge percent. It is actually a 
little bit hard to think about sometimes because some of them 
migrated as children. Some of them migrated as adults. Some of 
them are second generation immigrants. How do you even put a 
number on that? But most of them have immigrant founders as 
part of the founding team.
    Chairman Yarmuth. Thank you.
    Mr. Kahin, I am touched by your story. I am impressed by 
your story, and I have seen it replicated in my community many 
times over. We have a very significant Somali population in 
Louisville, Kentucky, and they have become very productive, 
cherished members of our community.
    And one of the things that occurs to me is that we have an 
economy, basically, it may change. Again, if we are going to 
change 250 years in the next 10 years, it may change, but right 
now, our economy is about 70 to 75 percent based on 
consumption, consumer spending.
    You have hired 60 people who are spending money in your 
community. You have people from your community spending money 
with you that enables you to pay them and to provide for 
yourself. How important do you think that immigration is to 
actually just bolstering--if most of the growth in the economy 
and in the population is going to be immigrant-based over the 
next few decades, how important is that going to be to 
sustaining your business, growing your business, and creating a 
consumer base?
    Mr. Kahin. I think it is very, very important. And I just 
want to add into this discussion that not only immigrants are 
creating jobs, but they are also bringing new ideas into 
personal entrepreneurial spirit. I, myself, go to high schools 
and college to tell my story, so young American can be 
inspired. Those who have never seen or anyone who look like 
they would succeed in business. And not only that, but I also 
promote American entrepreneurship outside of the United States. 
I went to the U.K. and South Africa, Kenya, Somalia, and 
Djibouti just to promote how we do things in America, and how 
this country is so pro immigrant.
    Chairman Yarmuth. Thank you very much. About 25 years ago, 
I was at a conference of some sort, and I heard a speaker named 
John Naisbitt who was a futurist, wrote many books. And one of 
the things he said struck me so dramatically, and that was he 
was talking about the birth rates in the United States of white 
women, African American women, and Hispanic women and how they 
were all different, the whites being the lowest, African 
American being next, and then Hispanic women being the highest.
    And he said why should this concern white America? And his 
answer was it should concern white America because if we don't 
make sure that brown and black America is as productive as it 
can possibly be and succeed as well as they could, that white 
America will not be able to retire.
    When I think about this whole discussion and just in the 
CBO's long-term budget outlook released yesterday, they 
projected that immigrants will account for nearly 87 percent of 
U.S. population growth by 2049, up from 45 percent today. So 
the base of taxes, the tax base that is going to support 
native-born Americans, is going to be largely dependent on 
making sure that this immigrant population is part of our 
economy. Is that not correct, Dr. Jawetz? Mr. Jawetz?
    Mr. Jawetz. Yes. So it is certainly the case in the current 
decade that is about to end right now, immigrants are 
responsible for all of the growth that we have achieved in our 
working population. And like I said in my testimony, just 
looking 10 years out, basically, but for immigrants and their 
children, we would see the working age population of the 
country drop by 7 million.
    Chairman Yarmuth. And if we were to take the steps that we 
have discussed in the hearing, deporting large--millions of 
immigrants right now and restricting our immigration numbers, 
that is going to make it very--a lot more difficult for those 
who are left in this country to have a safe, secure retirement. 
Is that not correct?
    Mr. Jawetz. Yeah. That is absolutely true. And it will be 
disruptive, you know, up and down. Up and down the economy, you 
would see impacts. One thing I mentioned for the agriculture 
sector earlier. When you take out the undocumented workforce in 
the agricultural sector without doing the work you need to do 
in order to have an effective, meaningful replacement for those 
workers, and you are looking at, you know, greater food 
imports. You are looking at the people who have those jobs 
stocking shelves, doing the trucking, doing the inspections. 
All that work potentially can go away. Farmers who have been 
owning their farms for, you know, one, two, three generations 
losing their farms. The impact spreads throughout the entire 
economy, and it is a house of cards at the end of the day, and 
one that is--going back to sort of the broken system, it is a 
house of cards built on a shaky foundation. And we have all 
just sort of, you know, allowed, like, spit and glue to hold it 
together through exercise of discretion or just looking the 
other way or whatever. It is not sustainable, and it degrades 
respect for the rule of law on every side of the debate, and it 
feeds calls for more enforcement on one side. It feeds calls 
for less enforcement on this side. None of it makes sense at 
the end of the day.
    Chairman Yarmuth. I appreciate that.
    Well, I agree with my Ranking Member, my good friend, and 
everyone who has really testified today that as a Congress, we 
really have to deal with this subject. We can't put it off. And 
there is one set of responses probably to the current crisis 
and crises, but there is another whole aspect of this problem 
that is much more significant in terms of our future. And I 
thank you for contributing to what I believe, if people look at 
the record of this hearing, the testimony that has been 
submitted which there is a lot of documentation, a lot of 
important information from all four of you, that it is probably 
one of the most significant pieces of a collection of 
information about immigration and the future importance of it 
that exists. And I thank you for making that contribution and 
for your time and wisdom.
    And before I adjourn, I do want to ask unanimous consent 
that the letter from the Coalition for human--Humane Immigrant 
Rights is entered into the record.
    [The information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Yarmuth. Without objection, so ordered. Once 
again, thanks to the Ranking Member, thanks to all of the 
witnesses, and without objection, this hearing is adjourned.
    [Whereupon, at 1:04 p.m., the Committee was adjourned.]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
</pre></body></html>
